<html>
<title> - THE NATIONAL PARKS OF ALASKA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                      THE NATIONAL PARKS OF ALASKA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 14, 2006

                               __________

                           Serial No. 109-241

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-892                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Mark Pfundstien, Professional Staff Member
                        Kimberly Craswell, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on Augsut 14, 2006..................................     1
Statement of:
    Blazsak, Marcia, Regional Director, Alaska Region, National 
      Park Service...............................................     7
    Menge, Michael, Commissioner, Alaska Department of Natural 
      Resources; James Stratton, Regional Director for the Alaska 
      Office, National Park Conservation Association; Dave 
      Worrell, Communications Director, Alaska Travel Industry 
      Association; Rick Kenyon, publisher, Wrangell-St. Elias 
      News; and John Shively, vice president, Government and 
      Community Relations, Holland America.......................    38
        Kenyon, Rick.............................................    78
        Menge, Michael...........................................    38
        Shively, John............................................    87
        Stratton, James..........................................    45
        Worrell, Dave............................................    69
Letters, statements, etc., submitted for the record by:
    Blazsak, Marcia, Regional Director, Alaska Region, National 
      Park Service, prepared statement of........................    10
    Kenyon, Rick, publisher, Wrangell-St. Elias News, prepared 
      statement of...............................................    81
    Menge, Michael, Commissioner, Alaska Department of Natural 
      Resources, prepared statement of...........................    42
    Shively, John, vice president, Government and Community 
      Relations, Holland America, prepared statement of..........    89
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Stratton, James, Regional Director for the Alaska Office, 
      National Park Conservation Association, prepared statement 
      of.........................................................    49
    Worrell, Dave, Communications Director, Alaska Travel 
      Industry Association, prepared statement of Mr. Peck.......    71


                      THE NATIONAL PARKS OF ALASKA

                              ----------                              


                        MONDAY, AUGUST 14, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Anchorage, AK.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the Assembly Chamber Room, Loussac Public Library, 3600 Denali 
Street, Anchorage, AK, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Jim Kaiser, counsel; Mark Pfundstien, 
professional staff member; and Kimberly Craswell, clerk.
    Mr. Souder. The subcommittee will come to order. Good 
morning, and thank you for joining us today. This is the ninth 
in a series of hearings on the critical issues facing the 
National Park Service. I would also like to welcome all the 
people who are here today who care about the parks.
    As I have said at many hearings, the national parks are a 
unique contribution to the world. Many countries have national 
parks and have preserved their historic sites. No other 
country, however, has developed the same kind of park system, 
with such diversity and breadth and distinctiveness, as our 
system.
    The national parks of Alaska contribute a vast array of 
unique sites to the National Park Service. Denali National 
Park, in addition to North America's tallest mountain peak, 
also encompasses a complete----
    Court Reporter. Sir, excuse me. I apologize. If you could, 
please, slow down.
    Mr. Souder. I can't. That's not going to be easy. I go 
pretty fast.
    Do you have a recorder, for recording it, other than 
manually.
    Court Reporter. I'll work with you.
    Mr. Souder. Also encompasses a complete subarctic 
ecosystem. Wrangell-St. Elias National Park, which is the U.S.' 
largest national park, includes the continent's largest 
assemblage of glaciers and the greatest collection of peaks 
above 16,000 feet.
    Lest one think that Alaska is only a spectacular national 
wonderland, Alaska also features historical sites detailing the 
settlement of Alaska, the Klondike Gold Rush of the 19th 
Century, and our nation's fight during World War II.
    Alaska's more recent statehood and the development of the 
conservation movement bring us face-to-face with challenges 
that the rest of the United States faced over a century or more 
ago. In Indiana, the reservation of certain lands for 
educational purposes and State use was settled generations ago. 
In Alaska, these issues are still being decided. The balance 
between conservation and the use of vast areas of natural 
resources, timber, and minerals, is still being worked out. 
There is no easy solution.
    Within the National Park Service as a whole, other issues 
are also being worked out. The balance between visitation and 
asset conservation continues to be controversial; especially as 
park funding becomes further stretched. As operations and 
maintenance, for example, demand more and more of the park 
service budget, the quality of the Park Service is sure to 
deteriorate. In many areas, we've already seen a decrease in 
hours of operation, the decline of services, and the 
deterioration of facilities. The pressure on the Park Service 
affects its ability to conserve and protect the environment, 
provide recreational opportunities, and educate the public.
    I will introduce each of the witnesses, as we do the 
different panels.
    Let me briefly explain what this subcommittee is, as part 
of the whole. The way Congress was first designed in the 
Constitution was the House was in charge of appropriations. 
Shortly after doing appropriations, in the original founding 
republic, the oversight committees were created, and then later 
on--actually, many decades later on, authorizing committees 
were created.
    So the way that the Park Service normally works through 
something like this, is an authorizing committee would hold 
hearings on additions to your land, whether there should be 
that--the appropriations committee decides how (Indiscernible) 
and process in the Senate.
    What hasn't happened is, is that the Government Reform 
Committee, the authorizing committee, hasn't really done many 
oversight hearings on the Park Service.
    The subcommittee that you are appearing in front of today, 
and that is here, does generally speaking, negative oversight, 
with some degree of positive oversight. In other words, we get 
everything from, in the Clinton administration, Whitewater, 
gaming, gambling regulations, the (Indiscernible) 
controversies, and that type of thing.
    Each witness at this hearing has to be sworn in. We 
prosecute people for perjury. Mark McGuire (Indiscernible) his 
testimony for 3 days, before they could serve a subpoena, so he 
could come and say he didn't want to talk about the past. 
That's what our committee does.
    And we look to see whether what we've been doing in 
Congress has been implemented in the way that we intended it to 
be implemented. And secondarily, if there are new things the 
Congress needs to do, then, if this committee--and as we work 
through these original hearings on the Park Service--needless 
to say, every authorizing committee and every appropriations 
committee objects to every hearing that the government 
(Indiscernible) conducts. Other Members of Congress think it's 
their areas to do it. We shouldn't be doing it.
    On the other hand, the reason I went through the 
constitutional guidelines is, we existed before the Resources 
Committee in the role of Congress. And it's our job to do that. 
But ultimately, to pass legislation, generally speaking--we 
don't do legislation.
    The subcommittee that I chair is in charge of narcotics, 
within the U.S. Government, and there we do authorizing 
legislation on methamphetamine, for example. We've also 
conducted 8 hearings--or 10, or however many--on 
methamphetamine just this year, and we'll be doing another one 
in North Carolina next week--this week. This week? No, it's 
next week. So we've been focusing a lot on methamphetamine and 
other problems with this committee, as well. And we do do 
authorizing, on the Drug Czar, to the numerous drug laws.
    But generally speaking, we're an oversight committee. So 
anything we learn today has to move to another committee. 
Therefore, we work with the resources committee, we work with 
the appropriations committee. But the most important thing 
we've learned, from doing oversight hearings, is that the 
changes tend to occur in advance by the executive branch, for 
the most part.
    What I know and have observed is, is that when we go to 
parks and ask questions--like, to use an example, the border 
report. Every time I went to a border location, 4 years ago--
and we did a series on borders. Mr. Bonner, who was in charge, 
then, of the combined--what's now ICBP, would go there 
beforehand, because we would go there afterwards, after 
(Indiscernible) start implementation of policies so that a 
timely----
    Court Reporter. Sir, I'm so sorry to ask you to slow down 
for me.
    Mr. Souder. The Federal branch needs to--the Federal 
agencies make some of those changes prior to us ever proposing 
or implementing the law. So I wanted to lay out--because this 
is an unusual process, in the sense we're not in Washington, 
we're doing field hearings. I intend to get out to the parks, 
to try and do the hearings in the field, as well as in 
Washington.
    We started this process with a Washington hearing; we'll 
probably end with a Washington hearing. We met multiple times 
with Fran Nill and other--with Lynn Scarlett, before we left 
Washington, and we will continue to work through it. Met with 
Steve Martin multiple times about what our goals were.
    We work closely with NPCA. This is a series of hearings, 
where we're looking at the challenges the Park Service is 
facing.
    And every agency is facing huge budget challenges, and 
every agency doesn't know how to deal with their own issues, 
every agency doesn't know how to deal with their health care 
questions, every agency doesn't know how to face the new 
homeland security challenges, with their current budgets.
    The good thing about the Park Service is there's been some 
increases in funding. In fact, all--better than all but a 
couple of agencies. But the challenges that we face are huge, 
and when you look at it--and as Congress, we can't just be 
faced with, ``Oh, what happened with the Park Service,'' and 10 
years from now, say, ``I wonder why this happened,'' without 
knowing what we're voting for, legitimately we're having to 
debate here.
    Does this go to education; does it go to fighting drugs; 
does it go to check every piece of luggage that's going on an 
airplane; does it go to, gee, do more mass transit quality and 
security; does it go to fight HIV; does it go to national 
parks? It's a Zero Subcommittee, in that--but we need to have 
the information, when we do a Zero Subcommittee, where the 
dollars are going to go and whether there are creative ways to 
do it.
    So I thank you for coming today. This is certainly the most 
comprehensive series that have ever been done on the Park 
Service. Each of these hearings comes out as a little book, so 
that there will be a little book on Alaska.
    I would hope, by the end of the year, to have the points, 
major points from these. And we thank you for being willing to 
participate in this. I need to do a couple of procedural 
matters. Before we hear testimony, we need to take care of some 
of the procedural matters.
    First, as of today, all members, have 5 legislative days to 
submit written statements and questions for the hearing record, 
that any answers to written questions provided by the witnesses 
also be included in the record. Without objection, it is so 
ordered.
    Second, as to technical exhibits and documents and other 
materials, referred to by members of the witnesses, may be 
included in the hearing record, and that all members be 
permitted to provide a statement or remark. Without objection, 
it is so ordered.
    The unusual thing about this hearing--we didn't know until 
the last minute, because I've been up here and staff's been up 
here, whether Mr. Cummings was going to come. But as you can 
see, from me being able to conduct this hearing and read those 
statements, because (Indiscernible) hearing's being conducted 
in a bipartisan manner.
    We don't have a single member of our subcommittee or 
committee or full committee, or (Indiscernible) or full 
committee, that's objecting to the hearings. Otherwise, I could 
not conduct these hearings the way we're doing it. They're, in 
effect, noncontroversial hearings, with the more or less 
(Indiscernible) support of our committee in a bipartisan way, 
which is relatively unusual right now in Congress, even within 
each party.
    So I thank you very much for coming.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.001
    
    [GRAPHIC] [TIFF OMITTED] T5892.002
    
    Mr. Souder. Our first panel is composed of Ms. Marcia 
Blaszak, Alaska Regional director--did I say your name, your 
last name, right?
    Ms. Blaszak. Blaszak.
    Mr. Souder. Blaszak. All right. We've known each other for 
a long time, but I'm notoriously bad with names.
    Alaska Regional Director of the National Park Service.
    She's accompanied by--let me make sure I've got a list of 
all the superintendents here. I note Tomie Lee from Glacier 
National Park, Paul Anderson from Denali, Jeff Mow from Kenai 
Fjords and Joel Hard from Lake Clark.
    Thank you all for being here. You'll need to stand, and I 
need to swear you in. As I mentioned, this committee is under 
oath. And if you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    As has been our tradition at each of these hearings, Ms. 
Blaszak will give the official testimony, that presumably has 
been cleared by about 15 different people, and then we'll go to 
questions.
    Thank you very much.

STATEMENT OF MARCIA BLAZSAK, REGIONAL DIRECTOR, ALASKA REGION, 
                     NATIONAL PARK SERVICE

    Ms. Blaszak. Thank you, Mr. Chairman. Good morning. Welcome 
to Alaska. We greatly appreciate the continuing support by 
Congress of parks and programs in Alaska, as well as the entire 
National Park System.
    Your travels introduced you to the Great Land, but our 
parks are as far flung as the State itself. Geographically, 
there are 15 units stretched from Sitka National Historical 
Park in Southeast Alaska, northwest some 1,200 miles to the 
headquarters of the Western Arctic Parklands in Kotzebue. In 
all, we manage 54 million acres, approximately two-thirds of 
the acreage in the National Park System. This includes 33 
million acres of congressionally designated wilderness, 
incredible natural and cultural resources. And, significantly, 
the parks we manage continue to function, for many Native and 
rural Alaskans, as areas for homes, subsistence hunting, 
fishing and trapping.
    This year, the region will host about 2.3 million 
recreational visits, more than double the number from 1986. We 
believe that the principal mandates of the NPS Organic Act, to 
protect park units unimpaired for future generations and to 
provide for the enjoyment of parks by visitors, are being met.
    In fiscal year 2005, the Alaska Region operated with a 
budget of $89 million, with an additional $10.3 million for 
construction, $2.4 million for roads, and $1.2 million for land 
acquisition. At the height of our summer operations, we employ 
about 1,000 people. We also license about 400 private 
businesses to provide visitor services in Alaska's parks.
    We are nearing completion of our Core Operations 
Evaluations. As we examine our parks and regional operations, 
the process has reinforced not only the financial realties that 
we face, but also underscored quite important issues and 
accomplishments, which I would like to highlight.
    The majority of Alaska's park units were established after 
other Federal land actions, which put millions of acres into 
non-Federal ownership.
    As a result, the park boundaries set in the 1980 Alaska 
National Interest Lands Conservation Act often incorporated 
non-Federal acreage. In recognition of this and other facts, 
the Lands Act included unique access provisions.
    There are more than 1.6 million acres of non-Federal land 
within the Alaska parks. The largest amount, nearly 900,000 
acres is found in Wrangell-St. Elias.
    The town of McCarthey is near the center of this park and 
celebrated its 100th anniversary this year. Its heyday was in 
the 1920's and 1930's, as the neighbor of Kennicott, then a 
rich copper mine. The mine closed in 1938, but the towns hung 
on, never quite ghost towns, always home to a handful of hearty 
individuals and families.
    Today, the mines are part of the national park and a key 
visitor destination. The towns are reached by a State-owned 
road which, along much of its route, is adjoined by State and 
Ahtna Native Corp.
    McCarthy is largely privately owned with an economy that 
has evolved, in part, to cater to park visitors. The 
opportunity and challenge we face is to protect the stunning 
resources of the national park and to provide the necessary 
access for residents and visitors, while simultaneously 
ensuring that a century-old community is allowed to continue to 
thrive.
    A second challenge in Wrangell-St. Elias is providing 
access across Federal land to inholdings. As a practical 
matter, this access began in many locations prior to the 
establishment of the park and continues today. In almost every 
case, the access has never been legally documented.
    For the past 2 years, we have worked to change that 
situation. Public comment ends September 2nd on the draft of a 
user's guide, which we believe will help guide both park 
managers and landowners through existing law, regulation and 
policy. The goal is to document access routes, establish terms 
for their use that accommodate the owner and protect the public 
resources, and develop a clear, consistent process for 
authorizing new uses of park lands to reach non-Federal lands.
    Visitation to the Alaska parks has increased from just over 
1 million, in 1986, to 2.3 million in 2005, due largely to the 
growth of cruise ship travel and add-on land tours. This has 
focused growth on Sitka, Glacier Bay and Klondike Gold Rush, as 
well as on road-accessible parks, particularly Denali and Kenai 
Fjords, and most recently, Wrangell-St. Elias.
    For the past 2 years, we've benefited from a partnership 
with the Alaska Travel Industry Association made possible by a 
$750,000 statutory aid grant. This funding has made possible 
marketing of lesser-known Alaska parks through a mix of direct 
mail, magazine advertising, industry and media trips, press, 
and industry meeting participation.
    The State of Alaska is an important partner in the managing 
of resources and our working relationship has improved over the 
past several years. While we sometimes disagree with the 
specific application of certain laws and regulations, overall, 
we have far greater areas of agreement. We're committed to 
continuing to work cooperatively with the State to ensure that 
difficult issues regarding access, subsistence, and resource 
management issues are resolved. We appreciate the commitment of 
the Governor's office and his commissioners and their staff in 
working cooperatively on these legal and policy issues.
    Alaska has benefited from the significant capital 
investments supported by Congress: Investments made to visitor 
facilities responded to growth and visitation and, to a degree, 
helped guide them; some $34 million in facilities opened at 
Denali in the past 3 years, providing visitors a high quality 
entrance area campus; at Wrangell-St. Elias, NPS investments in 
a new visitor center along the Richardson Highway, and 
Kennicott, State investments on McCarthy Road, and private 
investments in the region are key to the park and its gateway 
communities being sustainable visitor destinations. We've also 
completed land acquisition and initial designs for the $17.5 
million Mary Lowell Center in Seward, which will serve as the 
new visitor center and headquarters for Kenai Fjords National 
Park, and will house Forest Service personnel and a city-
operated meeting facility.
    This summer, we signed a record of decision advancing a 
series of phased developments on the south side of Denali.
    Court Reporter. I'm sorry, ma'am.
    Ms. Blaszak. The $46 million----
    Court Reporter. Could I ask you----
    Ms. Blaszak [continuing]. Project will----
    Court Reporter. I need you to slow down. I'm so sorry.
    Ms. Blaszak [continuing]. Will require joint funding by the 
National Park Service, the State of Alaska, the Matanuska-
Susitna Borough and others. The plan includes a visitor center, 
trails, campground and other facilities.
    The project has the endorsement of the visitor industry in 
Alaska, and has been developed with the input of area 
residents.
    Thank you for the opportunity to be here today.
    I would be happy to respond to any questions you have of 
us.
    [The prepared statement of Ms. Blaszak follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.003
    
    [GRAPHIC] [TIFF OMITTED] T5892.004
    
    [GRAPHIC] [TIFF OMITTED] T5892.005
    
    [GRAPHIC] [TIFF OMITTED] T5892.006
    
    [GRAPHIC] [TIFF OMITTED] T5892.007
    
    [GRAPHIC] [TIFF OMITTED] T5892.008
    
    [GRAPHIC] [TIFF OMITTED] T5892.009
    
    [GRAPHIC] [TIFF OMITTED] T5892.010
    
    [GRAPHIC] [TIFF OMITTED] T5892.011
    
    [GRAPHIC] [TIFF OMITTED] T5892.012
    
    Mr. Souder. Let me, first off, a visitation question. You 
said a pattern of growth is basically where cruise ships come 
in, say, Glacier Bay and Klondike. Have they increased 
substantially in the last 2 years or have they been flat, as 
well?
    Ms. Blaszak. The numbers coming on cruise ships, I think 
it's been fairly stable, with a little bit of a bump in 
travel--in visitor industry numbers.
    Mr. Souder. So they've been fairly flat, the last few 
years, but the bump occurred over a period of time, that the 
parks have seen.
    Ms. Blaszak. Yeah. This is what we talked about in the 
testimony, sir. Was the 10-year increase--or excuse me--20-year 
increase of 1 million visitors, in 1986, up to 2.3, in 19--or 
2006--5.
    Mr. Souder. Do you think the trends, in the last 3 years, 
are--they were heading--or what is your kind of internal 
thinking as to why it's been flat?
    Ms. Blaszak. Well, I think Alaska, in general, saw, after 
September 11th, as so many places did, a drop in visitation. 
And I think we've recovered back to the point we were prior to 
that. And I think we're seeing a marginal growth every year, 
but it hasn't been huge, significant growth.
    Mr. Souder. If the cruise ship industry has been the No. 1 
reason for increases in, say, Glacier Bay and Klondike, is it 
because, in fact, unless you increase the number of cruise 
ships seen, the attendance can't go up much.
    Ms. Blaszak. Actually, the cruise ship industry is putting 
larger vessels into the mix. And we had a projection, based on 
information we got from the cruise ship industry, that the 
potential increase was greater than it actually became. You 
know, they're positioning ships for this market. I'm sure that 
others on the next panel probably, in the industry, can better 
address the actual occurrence of what is going on.
    But we've also approved, for the 2007 visitation year, an 
increase of 10 percent in the cruise ships that will be 
authorized to access into Glacier Bay proper. And that 
potentially will provide greater access and numbers to the 
industry, as well as to the visitors.
    Mr. Souder. So wouldn't that suggest, though, that 
visitation at those parks is largely contingent upon passage on 
cruise ships, not because of September 11th?
    Ms. Blaszak. Yes, sir.
    Mr. Souder. If I may ask the superintendents at Denali and 
Kenai Fjords, has your attendance been relatively flat, too? 
And do you attribute that to the flights?
    With September 11th, we saw--is it--do you have--let me ask 
this--several questions. In some parts, it's European travel 
that's down. That could be related to flights and some 
September 11th impact. But then there's another question, 
whether energy prices are part of this. Which would also, now--
because we've seen some recovery in flights. The question is, 
is energy prices really don't seem to be headed down for the 
foreseeable future, which may be my lifetime, and if that's the 
case, on what basis would you be projecting growth in your two 
particular parks? Then we'll deal with Glacier Bay and Lake 
Clark.
    Mr. Anderson.
    Mr. Anderson. Mr. Chairman, the visitation----
    Mr. Souder. Hold your mic just a little closer.
    Mr. Anderson. Can you hear me now?
    The visitation at Denali National Park, over the past 3 or 
4 years, has been relatively flat; minor increases year to 
year. Currently, the visitation overall to the park is about 
400,000, a little bit over 400,000.
    More than 70 percent of the people that visit Denali 
National Park come as a part of a cruise tour opportunity, and 
most of those folks that do come to the park arrive by bus or 
by train.
    I think we've seen a decrease, over the past 3 years, in 
the--what we call ``the independent travel,'' the non--the 
traveler that's not associated with a cruise tour opportunity, 
and that's, then, been offset by the increase in cruise tour 
passengers coming to the park.
    Based on discussions with the industry and our own staff, 
the belief is that the visitations for Denali National Park is 
obviously highly dependent on the cruise tour program right 
now, and will continue to be so.
    Given the numbers of people that ride the park buses--and 
there's three different bus systems that people can ride--what 
we're seeing is an increase in demand for the tour buses that 
are affiliated more closely with the package tour industry and 
a decrease in demand for the visitor shuttle bus, which serves, 
in large part, the independent travel.
    Does the energy crisis have an influence? We thought that 
it would, and I think it probably has. I don't have specific 
numbers for this year. But the indications last week, from the 
folks that I talked with, are that there's probably less of an 
impact from this year's energy costs than people expected. And 
I would project that visitation to Alaska is likely to continue 
to grow into Denali, as well, at a probably small but constant 
rate over the next 10 years.
    Mr. Souder. You have similar----
    Mr. Mow. Mr. Chairman, at Seward, I think we have a 
slightly different dynamic there. I think what we're seeing at 
the park, in terms of our visitation--even though there have 
been some significant changes in the number of cruise ships 
coming to the community--our visitation has remained stable 
and/or had a small increase, actually, going on. I believe, 
Kenai Fjords National Park, we see more package tours, and 
particularly, the independent travelers.
    And again, you know, we had one of the major cruise ship 
companies cease to use Seward as their primary embarkation or 
disembarkation point, a shift over to Whittier. And the actual 
impact on visitation has been--isn't even perceptible. So----
    Mr. Souder. Would you clarify what you just said to me, 
again? You said cruise ships ``switch over toward Whittier?''
    Mr. Mow. Yes. Up until recently, Princess Cruises, for 
example, was using Seward as a port for embarking or 
disembarking passengers. And that ceased, just in--well, I 
think 2005 was the first year that they stopped using Seward. 
And there was a lot of concern in the community that there'd be 
significant economic impacts of that, and those impacts haven't 
been borne out by the visitor numbers. The impacts have come in 
other ways, but the actual visitors taking tour boats or coming 
to our Exit Glacier facility, they've been pretty steady or 
even a slight increase.
    Mr. Souder. Would you say they're coming off a package tour 
from Whittier that would include----
    Mr. Mow. You know, we don't have a real good handle on 
that, how that's, you know, sort of--as that vacuum was 
created, if the cruise ship companies themselves have made up 
that--to make up for that, offering Seward.
    Generally, Seward is not a port of call for the cruise ship 
industry. And I think that's kind of the significant element.
    I find that our influences are much greater due to things 
out of Anchorage. Being so close to Anchorage, we tend to be 
almost the community--Anchorage's backyard. So we really 
notice--and this year will be interesting, because the schools 
in Anchorage are going back 2 weeks earlier. And I would 
forecast that we will see some impact from that because, as 
I've noticed, that as soon as the schools are back in session 
and the State Fair begins, things change rapidly in Seward.
    Mr. Souder. Has your attendance stayed fairly flat?
    Mr. Mow. Excuse me?
    Mr. Souder. Has your attendance stayed fairly flat in the 
last 3 years?
    Mr. Mow. Yeah. Actually, we've had a small increase, 
overall. And I think a lot of that is due to the increases 
we've seen at Exit Glacier. We've made some significant 
improvements there that have really just made it more readily 
available for visitors.
    Mr. Souder. Would you tell me a little bit about Lake Clark 
now? Do you have mostly independent travelers, that come in for 
a wilderness experience? Do they (Indiscernible) come over? 
Explain a little bit about that.
    Mr. Hard. Sure.
    Mr. Chairman, Lake Clark, I think, really epitomizes what 
Alaska has to offer in terms of wilderness experience. We have 
three different types of visitors really in the park itself: 
Back country expeditions, sport fishermen and bear viewing. And 
our visitation has remained consistent in the park. Those folks 
that are looking for those experiences haven't, at least in my 
mind, been impacted too much by the energy crisis or the 
September 11th crisis; you know, post-September 11th.
    Our visitation into the park by our residents' own 
communities, however, may be diminished as a result of those 
fuel costs. We have five communities that have relationships, 
direct relationships with the park, and they have less capacity 
to meet these energy needs to get into the park probably than 
the external visitors, I would say.
    Mr. Souder. Let me, for the record--I know we can--and 
these just need to be rounded off for anybody to read through 
this and get a comparison. How many annual visitors would you 
say at Lake Clark last--2005?
    Mr. Hard. We generally average around 5,000. So very, very 
small numbers when you compare them to Denali, Kenai Fjords or 
Glacier Bay.
    Mr. Souder. That's for the year.
    Mr. Hard. Yes.
    Mr. Mow. At Kenai Fjords National Park, we're reporting 
approximately 250,000 visitors annually, in 2005.
    Mr. Souder. And Mr. Anderson.
    Mr. Anderson. 2005, visitation at Denali was 403,000 
visitors.
    Mr. Souder. (Indiscernible) Glacier Bay.
    Ms. Lee. In 2005, we had 360,000.
    Mr. Souder. And, Ms. Blaszak, what--for Skagway, at Gold 
Rush, I believe it was closer to 900,000, wasn't it?
    Ms. Blaszak. Yeah. We're bumping up to 900,000. That's 
primarily because it's a port of call for the majority of 
cruise ships.
    Mr. Souder. What about Sitka? Is it similar?
    Ms. Blaszak. Sitka's running at 290,000.
    Mr. Souder. And----
    Ms. Blaszak. Much fewer of the cruise industry use it as a 
port of call than the consistent stop at Skagway.
    Mr. Souder. And would Kobuk Valley and the Bering Straits 
be more similarly (Indiscernible).
    Ms. Blaszak. Yes, they would.
    Mr. Souder. Superintendent Lee, at Glacier Bay, I think--
did you tell me--I think you said around 90 percent are cruise 
ships; is that correct?
    Ms. Lee. That's correct.
    Mr. Souder. Do the people that come to the Glacier Bay 
Lodge, and come into the land and park facilities, as opposed 
to just doing the experience by boat, are many of them coming 
in on any kind of package, or are they more independent 
travelers?
    Ms. Lee. They're more independent travelers, sir. We've 
seen a reduction in our independent travelers and in the small 
package tours, the non-cruise passengers.
    Mr. Souder. I know from past experience at Klondike that 
one of the statements that I kind of heard flying to here was 
that many people buy a cruise package on the ship and do the--
even the historic tour, with a cruise-based guide or cruise-
hired guide, rather than the Park Service.
    Do you know if that trend's increasing, staying about the 
same? What percentages there are in Skagway, out of this--the 
900,000 that you say visited? That means they came through 
headquarters? How many of those participated in a tour or----
    Ms. Blaszak. I believe that would be the number that are 
arriving at the dock in Skagway, which is adjacent to the Park 
Service facilities.
    And you're familiar with our----
    Mr. Souder. They're not going into one of your park 
buildings, because you bought a number of the old buildings. So 
that assumption is there's not a fee.
    Certainly--is there a fee to any of the Alaska parks?
    Ms. Blaszak. At Denali, we charge entrance fees. We have 
campground fees at several of the parks. And through 
legislation at Glacier Bay, we charge $5 per person.
    Ms. Lee. Per passenger.
    Ms. Blaszak. Excuse me. Per passenger.
    But we have in legislation, in ANILCA, no entrance fees in 
the new parks that were established with the Lands Act.
    Mr. Souder. Do you know why that was the case, other than 
as a trade?
    Ms. Blaszak. I think it may have been part of the 
compromise.
    Mr. Souder. I'd just say, for the record, every State would 
have taken that deal, if it would have been offered. Because no 
park, really very few parks in American history, have ever 
voluntarily said, ``The State doesn't want the government to 
say, `Hey, why don't we make this a park?' '' When introduced, 
it was a huge battle in my home State, and there wasn't such an 
agreement.
    In the visitation, the reason I was kind of going through 
these numbers is, because as anybody reads these hearing books, 
Alaska is so dramatically different than any other State 
because of the cruise ship industry impact, that what I wanted 
to sort through--and I kind of touched on it there in Skagway--
but I heard Superintendent Anderson suggest a little bit of 
this at Denali--that you said that the cruise ship buses were 
increasing in their attendance, but the Park Service bus was 
declining.
    Mr. Anderson. (Nodding head.)
    Mr. Souder. What about the lodging? That clearly I've 
stayed in lodges owned by Princess, in my visit to Alaska; by 
Holland, in hotels. I've never been to Alaska without walking 
into some shop or some hotel owner reading me the riot act 
about foreign firms and their deals that they make with the 
stores on land. That they become subsidiaries. And it's 
possible--in fact, on this particular trip to Alaska, I got 
that a couple times: ``The foreigners are taking over the 
ships; they buy up and get the local businesses, and now we 
don't have people here in our towns, because this is all kind 
of a cut deal.''
    We actually, at a couple places, heard from individuals, 
who were on the cruise ships, who said, ``Boy, they're hard 
selling these packages, and you're better off kind of wandering 
away from the dock area a little bit.''
    I take it that's a fairly common tension. And would you say 
that the pressure is on the hotels? At Denali, in particular, 
hotel expansion? I believe two of the cruise lines have 
expanded their hotel operations there. I don't know how the 
gift shops are working there. But clearly, at the park 
entrance, there's a lot of pressure.
    And could you comment on that, a little bit, Mr. Anderson?
    Mr. Anderson. Thank you, Mr. Chairman.
    To set the record straight, the Park Service concessioner, 
Aramark Doyon Joint Venture, operates all the buses in the 
park, and the cruise tours put their passengers on those buses. 
And there's three different opportunities in the park, on the 
park road: To attend the Wilderness Tour, a 6-hour tour into 
the heart of the park; the Denali Natural History Tour, a tour 
that focuses a lot on cultural history as well as natural 
history, not quite as long; and then the Visitor Transportation 
System, which is the low-cost shuttle system that takes people 
from the park entrance to the end of the road, drops them off, 
picks them up, wherever they'd like.
    Mr. Souder. OK. So what you're saying is that the people 
buying the package tours, that you still get a commission off 
of, it's just that they're not doing an independent wander 
around the park.
    Mr. Anderson. The Tundra Wilderness Tour and the Denali 
Natural History Tour are most popular amongst the cruise tour 
visitors to the park.
    Well, and there's some trends happening there that are 
quite positive, I think. In days past, the cruise industry, 
tour industry, has spent one night in the hotel outside Denali, 
took a short tour or a long tour of 1 day, and then left and 
went on to the next destination. The major operators now have 
started to expand the time that people spend at Denali, to give 
them a much higher quality experience and opportunity to do 
more things there in the park. And then, that's the number of 
hotel rooms--to accommodate the same level of visitation but 
twice the time in the park--is increasing, and we expect it to 
continue to increase over the next few years.
    Holland America, Princess, both have expanded their 
facilities there in the park, and there's several other 
facilities that are projected to be constructed in the near-
term future.
    Beyond those major cruise tour facilities, owned and 
operated by the cruise tour companies, there are also a number 
of independent facilities right outside the park, both retail 
operations, in lodging and food establishments. And those are 
very well used and certainly competitive, if you will, in terms 
of product, price and quality, with all of the other corporate 
holdings, if you will, around park headquarters.
    And I guess, if there was something I didn't address, I----
    Mr. Souder. And let me say, one of the reasons is, because 
most of the people, when you're talking about people coming on 
cruises, you're talking about most of the people who come from 
my State to Alaska. That part of the reason they control the 
hotels and the gift shops the way they do, is not only the 
profit but consistency of. There's less variety of mattresses 
at Princess Lodges than there are, I've experienced, at other 
hotels, and similarly, you know, in other places.
    The challenge in Alaska is how, then, to get unique 
experiences. Because it's kind of like, do you eat at chain 
restaurants or do you eat at local restaurants? You get more 
variety at local restaurants. Sometimes really good; sometimes 
not so good. Or is it going to become more of a ``vanilla'' 
experience. And that's the challenge that you all have. Another 
huge challenge that comes in here is, it's clear, that 
attendancewise, you have a lot at stake, as to how many cruise 
ships there are and the capacity of the cruise ships.
    I'll ask Mr. Shively, on the next panel, whether the length 
of time is longer on the cruises or if they're spending less 
time on the boat. That seems to be a key variable here.
    But another thing is, what this means for visitor services, 
and where your visitor centers are. And this is a huge 
challenge. Because if the people are basically poking into the 
park and coming back to Denali, then the pressure is different 
for visitor services, and the question is, how do you manage 
that budget?
    I've been reading in the papers here about proposals 
regarding around out--more outside the park, north of 
Talkeetna, and a whole new visitor center. Does that mean you 
would close down something in the park? How in the world do you 
manage your budget when you see this kind of shift at Denali 
with the visitation if they aren't, in effect, staying in the 
park, when visitor services historically have been in the park 
and not outside, and how do you manage that in your staffing?
    I assume that you haven't increased FTEs over the last 5 
years.
    Mr. Anderson. We have had budget increases over the past 5 
years, not every year, not consistently. The total number of 
employees at the park: Approximately 260; about 100 of those 
are permanent, the rest are seasonal.
    And it is a challenge, and I don't have all the answers 
about how we deal with this changing demographic pattern, 
changing tourism interest, visitor interest in Alaska.
    We're working on it, and we're working with the Alaska 
Tourism Industry Association, with the cruise ship industry, 
with the local operators and private owners around the park, to 
help understand better what the visitors' needs are, what 
they're likely to be, and then how to respond, how to adjust, 
to meet those needs consistent with the park mission.
    And I recall part of the last question was about the tour 
companies and opportunities for further activities at the park, 
and whether or not they were consolidating activities, if you 
will, at the park entrance versus spreading them out. And I 
don't know much about the fees that are being charged or 
collected amongst the operators outside the park, since that's 
not my jurisdiction, if you will.
    I do know, though, that over the past 5 years, there's been 
a considerable increase in the number of different--the variety 
of opportunities, recreational or experiential opportunities, 
provided in the Denali area by other private operators, small 
operators in Healy, McKinley Village, Denali Park Headquarters 
area. And I'm certain there's commissions to help make that 
happen. I'm not part of that, part of the program. But there 
are certainly quite a diverse range of experiences and a 
diverse range of providers, and it's an increasingly larger 
number, it seems, over time.
    Mr. Souder. Anybody who enters the park pays a concession 
fee to the park; is that correct?
    Mr. Anderson. Well, they pay an entrance fee; a member of 
the public that comes into the park pays an entrance fee into 
the park.
    Mr. Souder. If you take Talkeetna Air Taxi into--over the 
park, they pay you a fee.
    Mr. Anderson. Yes, they do. Well, if they land, they pay a 
fee. If they fly over the park, at this point, they don't pay 
any fees. At this point, if they don't land, they don't pay.
    Mr. Souder. Any guiding that comes into the park would pay 
a fee.
    Mr. Anderson. Correct.
    Mr. Souder. So if they touch the land, not the airspace.
    Mr. Anderson. That's correct.
    Mr. Souder. Superintendent Lee, in Glacier Bay, the 
concessioner is struggling with how you update a Mission 66 
facility. If the attendance is dropping, what do you see 
happening, or what options do we have, to keep the 
concessioneer offering overnight services in Glacier Bay.
    Ms. Lee. This is one of the issues that we're struggling 
with right now. And again, we're working with the local 
community. We have had a number of family tours earlier this 
year, thanks to ATIA. We're trying to address that now. We 
don't, unfortunately, have all the answers.
    We're hoping, of course, that some of the trends will 
change: That we will start to see more independent travelers, 
we'll start seeing some of the small package tours coming back; 
but it seems almost across Alaska that we're seeing fewer and 
fewer of the independent travelers in most of the areas.
    Mr. Souder. You don't have any direct--the boats that go in 
on the tours, what other concessioner fees would you get at 
Kenai Fjords?
    Mr. Mow. Well, Kenai Fjords, as an ANILCA park, is a very 
different situation than, I think, what both Glacier Bay and 
Denali have. As parks, we weren't tasked with developing our 
own infrastructure, within the boundaries, we used the existing 
communities. Plus, the jurisdiction at Kenai Fjords National 
Park is such that it ends at mean high tide. So as long as the 
tour boats aren't offloading visitors onto shore, they aren't 
technically entering the park, and as a result, the tour boats 
offering, you know, the tours into the fjords don't pay us a 
fee. They're not concessions.
    Fortunately for us, we have a wonderful partnership 
agreement with them to offer interpretive services for them. 
And they've found it to their benefit to be able to market 
their tours with uniformed park rangers to talk about the park 
resources. And at the same time, they're willing to work with 
us to offset those costs of providing those additional visitor 
services.
    Mr. Souder. Do all the tours have guides?
    Mr. Mow. That's correct.
    Mr. Souder. And how much----
    Mr. Mow. Well, again, the number of visitors that actually 
set foot in the park, along the coast, is very, very small.
    Mr. Souder. But I mean, do all the boat tours offer park 
rangers?
    Mr. Mow. Not quite. Probably about half of them.
    Mr. Souder. How much do you get per passenger?
    Mr. Mow. It's not by a per-passenger charge. We sit with 
the tour boat companies and negotiate out the expenses that we 
would bear in providing the services that they're asking for.
    Mr. Souder. So basically, it covers the cost of the 
rangers.
    Mr. Mow. That's correct; the rangers, some of the 
administrative overhead, and we pony up the cost of program 
oversight and administration.
    Mr. Souder. At Glacier Bay, you have a similar 
(Indiscernible).
    Ms. Lee. That is correct; and also, with our tour boats.
    Mr. Souder. And what are the fees there per passenger?
    Ms. Lee. The fees are $5 per passenger, by legislation. But 
we also do the cost recovery, for the cost of the interpretive 
services on board.
    Mr. Souder. And is there anything similar at Denali?
    Mr. Anderson. Yes. There is--through the NIRI Science and 
Learning Center, the Alaska Natural History Institute's 
operation--what we call ``fee-based education'' available to 
the public, in general, but quite predominantly used by the 
cruise industry for their passengers. And those fees, depending 
upon the offering, may range from $40 to $70, for the given 
program that they take part in. Those fees then are used to 
provide the personal services, to hire the people that present 
the programs, and to support science in the Science and 
Learning Center.
    Mr. Souder. Are there other parks in Alaska that have 
similar fee arrangements with the cruise ship industry already?
    Ms. Blaszak. Actually, this year, for the first time at 
Wrangell-St. Elias, with the cruise ship industry, we're 
offering interpreters in Yakatat. And I'm trying to think. 
That's the newest and most recent. I think it's the bulk of it 
in these parks.
    Mr. Souder. And at Wrangell, most of the--Kennicott Lodge 
is a traditional concessioneer; is that right?
    Ms. Blaszak. Kennicott Lodge is a private business, on 
lienhold, within the park.
    Mr. Souder. Does anybody pay concession fees then?
    Ms. Blaszak. We have a concessioner providing guided tours 
through the mill building. We also have guided hunting in the 
park, not specifically at the Kennicott area. But the only 
concession operation at Kennicott proper is the guided mill 
tours.
    Mr. Souder. And at Lake Clark, I assume all the facilities 
are private. Do you pick up any kind of fees in the park?
    Mr. Hard. We only have three concessions, Mr. Chairman. 
They're all sport hunting concessions. And we have about 
seventy CUAs, commercial use authorizations. But they all have 
their own facilities. We don't provide any facilities. And we, 
perhaps, generate somewhere in the neighborhood of $30,000 
annually in the fees from all of those sources.
    Mr. Souder. One of the clear challenges we have here is, 
that anybody--like I mentioned earlier, every single agency 
that we have in the Federal Government is looking at going off 
the cliff to try to meet their health, pension, future 
obligations, and Park Service is not unique. Individual parks 
are not used to feeling this kind of pressure, so they feel 
unique.
    But (Indiscernible) Federal Government, I mean, we've known 
this with Social Security for a long time. Now we're seeing it 
hit Federal employees, we're seeing it (Indiscernible), we're 
seeing it hit criminal justice, probation officers. We're 
seeing it across the board.
    But GM and Ford, and our airline industry, are all 
teetering (Indiscernible) bill before we left. Every single 
major company in America is having this challenge.
    So the question is, in prioritizing where you put your 
increasingly challenged amount of resources, even if we succeed 
in getting more dollars to the parks, the question is, where is 
this going to go?
    The good news about visitation is, is that this is one of 
these classic tradeoffs in the Park Service: If you're getting 
fees, it's better because you're getting more revenue; if you 
get more people to the park, they can enjoy it. I mean, that 
was part of the original mission. And they can spread the word 
about the (Indiscernible) of the park.
    On the other hand, you're more likely to pass a resource 
off better if you don't have huge increases in visitation. It 
stays wild. I mean, the big challenge is about that. Is it a 
(Indiscernible) simplification than a joke. But half the 
rangers would just as soon no people came, and half the rangers 
are disappointed if you're not doubling your visitation, 
because it depends on what part of the area it is.
    But one of the challenges is, if your visitation is flat, 
and if you don't have an additional source of revenue coming 
in, and the Federal Government doesn't suddenly become an ``old 
man,'' so to speak, the question is, are you going to put, at 
the big wilderness parks--I assume you have challenges for 
biologists, for wildlife preservation, for all sorts of unique 
opportunities.
    One of my big things that I believe our national parks 
ought to be doing is hooking up more, through the Internet 
education systems, math and science programs, throughout the 
United States. Because not everybody has to visit the park to 
see the park, with today's advances in technology. I know the 
Park Service is improving, and each park is working at it, but 
maybe--other than people in the region, may not get to the 
parks as often.
    But how would we do this? Well, we see big increases at 
Golden Gate--Gateway or Santa Monica, as people are staying 
closer to their homes, and they're looking at visitation 
figures of 14 billion in some of these parks. It's a different 
mix, to the historic park system, than what we think of the 
crown jewel parks, and the beautiful wild parks have flat 
visitation.
    The challenge here is how--which I think your ``Ranger On 
Board'' programs are a great way to deal with this--is how can 
you come up with visitor services that are oriented toward a 
certain type of visitor, around the cruise ships, that becomes 
self-perpetuating? In other words, the money for those visitor 
services are paid for by those people who are coming in.
    Because if you're facing a declining budget and a squeezed 
budget, and you're deflecting to the same people more of your 
resources, the challenge is, if you're going to build another 
visitor center at Denali, how are you going to pay for it, and 
if--with the rangers, without having to pull up and scatter 
your rangers and have them all be doing visitation and none of 
the park functions? It's a similar challenge of, how can we 
keep a cruise boat not an option, in gestalts, for the Park 
Service? Can some of the cruise ship money be transferred over?
    Director Blaszak, have you looked at any packaging for 
concessioneers? In other words, if you get something in the big 
park, then you get to do something in one of the smaller parks.
    Ms. Blaszak. We actually entertained discussions on that 
issue, Mr. Chairman. And we're trying to work, I think, 
collaboratively, with Aramark, specifically, to resolve their 
losses that they're encountering at Glacier Bay. But we 
currently don't have a mechanism to package Denali particularly 
with Glacier Bay. But we have had those discussions.
    Yet, you are aware, sir, that the proceeds from the 
franchise fees collected at Denali, because of their contract, 
go to the park and their infrastructure needs.
    And none of us have enough to fulfill everything we would 
like to accomplish in the parks, and to take from one to serve 
another, at this point, would perhaps be more damaging to the 
park that does have a viable concession operation than 
necessary.
    But we have been discussing that. We haven't reached the 
solution yet.
    Mr. Souder. One of the interesting things that we've 
learned by the parks, about the parks is, is that people are 
generally willing to give money, if they think it's going to 
the park. That for all the talk about demonstration fees in the 
United States, as long as you work out some kind of challenge 
with a focus--because if they had to pay every time they come 
into the park, that's a different ball game. But for people 
coming from Indiana to Alaska, if they think the money is going 
into the park, rather than to profit, there's not been a 
resistance to demonstration fees, so-called.
    I mean, we need to demonstrate these things for 200 years. 
Are they ever going to be made permanent?
    But the fact is, we hardly have any letters, on record 
anywhere in the United States, of people objecting if the money 
goes into the park. They don't see that as a tax, they see that 
as helping the park. And the question is, is how to do this, so 
Alaskans, who are used to having access to the land, don't get 
hit the same way as visitors who are, in effect, 
(Indiscernible) in their State and seem to be willing to put 
money into improving parks, which they do in almost every major 
park now, and even at little tiny stops on the highway in 
Nebraska.
    You know, people are getting more and more used to paying 
fees to help cover the shortages, if they think it's going to 
the park. They don't necessarily want to see it go to foreign 
aid programs, they don't necessarily want to see it go to 
programs they don't approve of, but they're willing to give to 
the park, if they think the funds are going to be used in the 
park.
    Now, let me touch on inholdings. As someone who years ago 
paid $10 to the Pilgrims' park on what turned out to be my 
land, it is an interesting question of how to handle 
inholdings, because almost every park in America negotiated and 
approved some type of inholdings agreement inside the park. 
It's hard for me to think of a park that hasn't had this 
challenge. But, generally speaking, they don't have a million 
acres of inholdings, because there's only one other park that's 
that big, and that would be Yellowstone.
    You said, in your testimony, that you're working on a draft 
of a guide access. Now, I don't mean to sound this ignorant on 
ANILCA or on the followups. Wasn't this very clear, from the 
beginning, on how access was going to work? It looks to me that 
there's a lot of checkerboard patterns. That sitting on the 
Resources Committee and on the park subcommittee, I've sat on 
many hearings arguing about this question. What was the thought 
of picking a place--if you weren't already living there and 
subsisting there--of picking a place that didn't have access? 
And wasn't it discussed what the tradeoffs would be, in the 
beginning, on the access? Or was that something we were just 
going to discuss later on?
    Ms. Blaszak. You pointed to the real, I think, issue that's 
been at our fingertips for the last couple of years in Alaska, 
in the parks in particular. We believe and have, I think, 
attempted to better articulate our understanding of Congress' 
intent, when it came to accessing inholdings in the Alaska 
parks.
    What we see in law, though, has not been carried out in 
practice by our predecessors. There's been, basically, a 
``Well, we'll get to that when we get to it'' attitude.
    And it's caused, frankly, some, I think, unnecessary 
conflict of intent on our part and inaction on our part in the 
past.
    We realize that we have an affirmative responsibility to 
recognize access that ANILCA lays out for landowners within our 
parks, and are attempting to get to that, based--using existing 
law, policy, regulation, that takes away the unknown factor. We 
have a number of inholdings that predate the park. We have a 
number of new landowners, that are perhaps afraid to engage 
with us, for fear that the onerous process will make it almost 
impossible. And we're trying to not be at that place.
    We have a number of existing access routes that we believe 
we can fairly quickly document, and we're not looking at this 
as a we're-giving-you-permission aspect, as much as we're 
looking at it--agreeing with the landowner that he or she had--
we, the Federal Government, with responsibility to ensure 
protection of park resources, can agree to.
    We're making good progress. We're having a number of 
meetings. And frankly, we scrapped it, after the second 
version, realizing we hadn't really hit the mark, and decided 
it was more important to engage and have dialog with the 
landowners that were particularly affected by this, before we 
spent much in something that was not going to work. And we're 
continuing on those efforts, and I think you will hear from 
members on the next panel, how they perceive our efforts are 
going.
    Mr. Souder. Let me ask, because I've tried to understand 
this, And it's not that I haven't read multiple books on Alaska 
and on your unusual parks. It's not that I haven't been to 
multiple hearings and conferences and heard the discussion. 
``Chairman Souder, I don't understand this.'' That one thing 
is, when they were picked, did the parks pick first, or did the 
State pick first?
    Ms. Blaszak. I'm not a good historian on that aspect of it. 
There----
    Mr. Souder. In other words----
    Ms. Blaszak. Well----
    Mr. Souder [continuing]. When Wrangell-St. Elias was 
picked, if you had (Indiscernible) and you owned it, and you 
had a cabin there, and you were floatplaning in----
    Ms. Blaszak. Uh-huh.
    Mr. Souder [continuing]. But when the State of Alaska 
picked multiple things all over, what's now McCarthy, was 
Wrangell there first, and then the State picked, and then you 
filled in Wrangell around it.
    Ms. Blaszak. My understanding--and I may have to ask one of 
my friends from the State to clarify this, Mr. Chairman, is 
that the Native organizations were able, through the Alaska 
Native Claims Act, basic--in the early 1970's, initially made 
claims. But the final adjudication occurred, and is still 
occurring, quite frankly, with the Bureau of Land Management 
taking the lead on actual ownership and conveyance of those 
parcels that were selected. The State of Alaska and the Native 
corporations all had an opportunity to select acreage at the 
same time that the copper mines, if you will, was being 
adjudicated.
    Now, I'll stop there and ask that, perhaps, Mr. Menge can 
respond specifically.
    Mr. Souder. I'll pursue that.
    But it just seems that, at root, that some of the conflict 
here--because at Wrangell, for example, the Native corporations 
are all pretty much along the main road, such as it is. It's 
the State and the University that has hundreds of thousands of 
inholdings along McCarthy Road; there are individual landowners 
there. But the pressure, when you look at whether you're going 
to develop a park road, is clearly in the hundreds of thousands 
when you're looking at State agencies, and in the hundreds when 
you're looking at local individuals.
    That on a map, which I just saw the day before yesterday--
(Indiscernible) in the office, looking at the map--it just 
stands out, and every time, it's stood out to me. Furthermore, 
in talking to the Native corporations, they've been more than 
willing to concentrate out so they don't go in (Indiscernible). 
And there obviously needs to be some understanding. So that 
doesn't mean you have a right to get a bulldozer, like the 
Pilgrims did. But to have access to your land, if you lived 
there all your life. That was our intent in Congress. It's 
always been our intent, in inholdings, to try to work that out, 
in reasonable ways, to have access to your land.
    But the unusual thing about Alaska is people don't live 
there who bought the land and now want to try to get access 
that is an upgraded access. Not historically. And the fact that 
you have the State inside here--particularly when you look at 
Wrangell. But it's not just Wrangell. That in working--and it's 
not just the Park Service.
    I went with Congressman Young, at Cordova, up into the--I 
think it's the Copper River Delta, where the Chugach chose 
woods, and they wanted to cut the woods.
    They banked on that income for the Chugach, and they don't 
have a way to get there. And so the question is, what 
prompted--and how could there not have been a discussion of 
``Why would you pick this area that you want to cut trees, if 
you don't have access to it?'' If there wasn't an 
understanding, then how could--you know, it's just really hard 
for me to understand, as a business guy, how this type of thing 
would have happened. Because putting this off till later--it's 
the whole thing of what kind of access? Is it permanent access; 
short-term access? Is it not similar to the forest folks' 
argument, that we have for timber cutting, in forests all over 
the country? Should they have to put in a wide road? Should the 
wide road then be kept permanent, so people can camp on it, so 
they can get to the forest fires and supposedly deteriorate, 
and then be more a, ``wilderness,'' until the next time they 
cut timber?
    It's not like I'm not familiar with this. It's just I've 
never seen this massive a scale. And what's unusual here is 
it's government/government conflict. Because if it was just the 
landowners, who have been there for a long time, you could have 
a battle on a cabin, in the Rocky Mountain National park, where 
a person was supposed to leave their cabin and now want to stay 
there. You could have those kind of individual variations of 
landowner rights type of thing. We have it in all the national 
parks, but the scale here is massive.
    Do you sense that you are going to resolve it? What kind of 
comments are you getting on this in your report?
    Ms. Blaszak. We believe we can resolve the individual 
landowner access issues fairly easily. I think our greater 
challenges are going to be where we have mining claims within 
the park boundary, that are--for which we receive requests for 
access for--potentially permanent mining access. And how----
    Mr. Souder. Let me ask you a question.
    Ms. Blaszak. Go ahead.
    Mr. Souder. Are most of those mining requests people who 
really want to mine? I mean, that's a value judgment. I'm not 
trying to trick you into identifying individuals, but--let me 
phrase it this way: I know people in my own district, who 
bought up railroad rights to, in effect, leverage, because they 
wanted to get into development.
    Ms. Blaszak. I have to take at face value the requests that 
we are working on. And there's a----
    Mr. Souder. Has anybody tried to open a mine in the park 
yet?
    Ms. Blaszak. I think we've had requests for mining, plans 
for operations. I'm not certain that (Indiscernible).
    Mr. Souder. Oh. So they've wanted to open an actual mine.
    Ms. Blaszak. Yeah. Yeah.
    But back to the question at hand, Mr. Chairman. You know, I 
have to respect the sincerity of the applicant, that they are 
sincerely interested in doing that. And frankly, it gives you--
you know, it would be beneficial to all of us to know that was 
their true desire, or if they're attempting to get a higher 
value for potential mineral rights, and how we might get to a 
place of agreeing on the value of the property (Indiscernible), 
should they actually want to sell, and then try and buy. And 
those are the conversations we need to continue to have.
    Mr. Souder. And are the rules different in the preserve 
park at Wrangell?
    Ms. Blaszak. Yes.
    Mr. Souder. And wouldn't that have been part of the 
discussion as to whether it was a preserve or a park, in that 
particular area?
    Ms. Blaszak. Actually, the differences, I should clarify, 
sir. The differences in preserve lands and park lands, for the 
sake of money, is no different. For hunting, sport hunting is 
allowed on preserve lands. There are differences, of course, in 
wilderness.
    Mr. Souder. In the wilderness preserves.
    Ms. Blaszak. In Wrangell's, yes.
    Mr. Souder. So, in that, if there is an inholding that 
allowed mining in a park, that wasn't wilderness, that there 
would be usually a statement as to the risks to the park, but 
would or would not be named, historically, a park of Alaska? 
What kind of precedence--forget a park of Alaska for a minute.
    Ms. Blaszak. We don't have good precedent. That's our 
problem. In fact, Mr. Anderson might be able to address that. 
At Denali National Park, there had been mining in the Kantishna 
area for many years, that through, I think, the consent of 
Congress, we were able to buy out the majority of those land 
claims.
    Mr. Souder. Mr. Anderson, I note that the other thing is 
that--although, Alaska, you tend to circulate a little more in 
Alaska. And you've all worked in other places, too. And I ask 
the question broader. In addition, but in Alaska--could you 
kind of give a little more on Denali, and on any other 
experience that you know of, and any precedents we have in the 
park on mining inside the park.
    Mr. Anderson. Let me speak specifically to Denali for just 
a minute. When when Mt. McKinley National Park was expanded by 
4 million acres and renamed as Denali National Park and 
Preserve, in ANILCA, it encompassed the Kantishna Mining 
District, just outside the old park boundary, as well as some 
other mining claims along the boundaries also in the park.
    In the early 1980's, there was active mining activity going 
on there, and some desire to increase access in mining at the 
time. Based on a lawsuit, that occurred in the early 1980's, 
the Park Service did an environmental impact statement on the 
impact of mining in the Kantishna area on national parks. The 
outcome of that, a preferred alternative, that was signed off 
on, I think, in 1985, was that the Park Service would attempt 
to buy out all of the mining claims in the National Park, 
including all of those in Kantishna. And from that point 
forward, we've moved in that direction to purchase mining 
claims that were available for sale.
    We have, in fact, approved plans of operations in Kantishna 
since that time, but not very many. All of those have been very 
small-scale, individual mining activity, as opposed to big 
corporate, large-scale mining activity. And we continue to work 
on that.
    It's been a very acrimonious process, over time, and with 
the help of the Congress, in the late 1990's, we were--and in 
cooperation with the landowners in Kantishna, mining claim 
owners, we were able to acquire the majority of claims through 
a legislative taking, on a willing-participant basis; so that 
the owners were allowed to put their land into a taking 
situation, if they so choose, and then the courts made the 
determination on the value of the claims.
    That eliminated about 4,000 acres of mining claims. There's 
less than 1,000 acres of private lands left in Kantishna. There 
is no mining activity occurring at the present time.
    Mr. Souder. Well, in sorting out how we're going to deal 
with the inholdings question, long term--basically not in 
dealing with many people who--native Alaskans, Alaska Natives, 
either one, who have been on the land for a long period of 
time, but a lot of which are, for lack of a better word, 
``absentee landowner'' questions of inholdings, which is 
relatively unique; the scale. The scale is certainly unique, 
but even the concept is relatively unique in Alaska. Partly 
because of the timing when you did it; partly the way the 
process was done.
    Is it the Park Service policy that you would trade land?
    Ms. Blaszak. We would always be interested in considering 
an exchange, particularly when we could consolidate acreage, to 
make it less difficult for access.
    And I'd also like to add, Mr. Chairman, that the number of 
selections that were made by the Native corporations at the 
time of the compromise of ANILCA, were selected for their 
potential mineral or timber value, anticipating that they would 
produce revenue for mature elders of those Native corporations 
who made the selections.
    Mr. Souder. And the challenge in the--just as an outsider 
coming in--and let's plunge into another controversy.
    I, for example, favor drilling in the Arctic National 
Wildlife Refuge. I wasn't on the Alaska Delegation. I've looked 
at it. Clearly, there, that area was a set-aside, consolidating 
area for potential drilling. It wasn't a bunch of lots. All 
through, it was set aside. It was marked on the original map 
what its intent was.
    I'm also a mining guy. I have the No. 1 manufacturing 
congressional district in the United States. You can't make 
things if you can't get things out of the ground. The question 
is, is where and when and in what kind of process you do that.
    That's originally BLM land. It was Bureau of Lands and 
Mines. The Forest Service was created to cut the timber, not to 
make it a wilderness, and this really becomes a wilderness. In 
my opinion, they should move it to the Park Service. That this, 
all the time, causes nightmares in the Park Service, because 
everybody outside the Park Service thinks that's the ultimate 
goal of the Park Service, to turn every piece of land that they 
have into a wilderness.
    I'm a visitation guy, too. I believe there should be 
wilderness areas and visitation areas. But increasingly what 
we're seeing is the Forest Service access to places. And most 
parks around the United States are becoming recreational areas, 
and you see the more and more lodging at the edges, the 
entertainment-type things that people like me would do, that 
are older and don't hike 15 miles up a mountain. We tend to 
scatter around the edges of the places (Indiscernible) in.
    I'd be more of a cruise ship guy, in that sense, as I get 
older. Not that I was all that great a mountain climber, when I 
was younger, but would be more of a cruise ship person, who are 
at the edges.
    But there is an orderly process, as we're trying to move 
toward it, and I see you making those steps in Alaska. But the 
challenges here are just so massive, compared to what we've 
heard at the other parks hearings, partly because it isn't 
necessarily that nice, orderly forest land abutting the park 
land.
    Do any of you have forest land abutting the park land where 
the visitation services are, visitor services? In other words, 
that's the question. That in the wild areas--you have forest 
land around the back of the Kenai Fjords and elsewhere. But is 
the forest abutting up, or BLM land abutting up? Do you have 
any kind of buffer zone that----
    Mr. Mow. Well, at Kenai Fjords, along the Exit Glacier 
Road, the Chugach National Forest and the Park Service are 
immediately adjacent. We've had some differences on how we 
manage those lands, particularly camping issues. But we've been 
working together, more and more, on specific problems that come 
up, around certain times of the year, to address some of those 
issues. But, you know, I think you're correct in that it's 
generally rare. But, you know, this is one example on where we 
do have day-to-day visitation and visitor services occurring 
in----
    Mr. Souder. And as I understand----
    Mr. Mow [continuing]. The adjacent areas.
    Mr. Souder [continuing]. Part of your challenge on the 
water is, is that the water around Kenai Fjords is actually 
Fish and Wildlife; is that correct?
    Mr. Mow. Well, the offshore islands are under the 
jurisdiction of the Fish and Wildlife Service, as part of the 
Alaska Maritime National Wildlife Refuge. And so, you know, 
again, the tour boats, themselves, don't actually set foot on 
those lands. But, you know, those choosable islands are the 
most highly visited portion of that maritime refuge, and so 
it's our park interpreters that provide the interpretive 
services for those.
    Mr. Souder. Because as you look at the maritime wildlife 
refuge, it's scattered all over the place. Up near Kobuk 
Valley, isn't it also there that the waters are basically Fish 
and Wildlife, but the land and park is the Park Service.
    Ms. Blaszak. Because of the large tracts of federally 
managed land in Alaska, we abut NPRA, to the north, at Noatak 
and Gates of the Arctic, and BLM manages those lands. We also, 
in that part area of the country, have, I think, specific 
national wildlife refuges adjacent to us, and we do 
collaboratively provide visitor services at the hall, at the 
Kobuk Visitor Center. So there's a number of places where we 
intersect.
    I think at Denali, BLM--isn't that adjacent to you, Paul, 
out the Denali Highway? Maybe not directly, but----
    Mr. Anderson. (Nodding head.)
    Ms. Blaszak. So we do have places where we intersect.
    Mr. Souder. Well, I thank you very much for your testimony. 
We may have some additional followup written questions, to get 
some park-specific data, and have some further followup 
questions, after the second panel here. We have to be out of 
the room at 1, so I want to move to the second panel.
    But I thank you for your willingness to be open today to 
talk about questions that are very difficult and very important 
to Alaska. And I feel very awkward, as a form of presence here. 
And my friend, Congressman Young, who's an impressive advocate 
for Alaska--it's really a concern of a lot of us that are 
asking questions about Alaska, because he thinks they're--it's 
his State, and he doesn't want us to--and every time we start 
to probe too much, he says, ``That's why I voted against 
Statehood.''
    These are huge questions, and to some degree, there is a 
legitimate feeling in Alaska that--in Indiana, we just cut down 
all our trees, and we, quite frankly, removed the Native 
Americans. On the other hand, you learn something from your 
experience, and you try to balance out how to allow a State the 
actual economic growth and people growth that they have every 
right to do, as people who live here.
    But the national presence is a tremendous--Seward's Folly 
wasn't so much of a folly, historically, when you look at it, 
and it was a benefit to the United States.
    And, otherwise, quite frankly, if the U.S. Government 
hadn't come in, we'd be speaking Russian here today. So the 
U.S. Government has been a positive presence in Alaska, from 
the beginning, and an active presence, and it's a very 
difficult process to work through.
    And I appreciate your willingness to each have your 
respective parks and all of your individual rangers to work 
through this. It's a beautiful land, and we want to preserve as 
much as we can and enjoy it, as well. So thank you very much 
for coming today.
    Ms. Blaszak. Thank you, Mr. Chairman.
    Mr. Souder. If the second panel could come forward.
    I presume all of you heard, in the first panel, our five 
witnesses here are Mr. Menge; is that correct?
    Mr. Menge. Menge.
    Mr. Souder. Menge, OK.
    Commissioner of the Alaska Department of Natural Resources; 
Mr. James Stratton, who everybody calls ``Stratto.''
    Is that an official name, or is that a----
    Mr. Stratton. Nah, it's kind of an official name.
    Mr. Souder. Regional director of the Alaska Office, 
National Parks Conservation Association. I understand he's 
going to sing his testimony today.
    Ron Peck is being represented today by Dave Worrell, who's 
the communications director of the Alaska Travel Industry 
Association. Thank you for coming today.
    Mr. Rick Kenyon, publisher, Wrangell-St. Elias News. Thank 
you for coming all the way over. I just did the drive myself.
    And Mr. John Shively--good to see you again--vice 
president, Government and Community Relations for Holland 
America. As you've heard, it's a government oversight 
committee.
    It's been our standard practice to swear in all our 
witnesses. So if you will all stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    That probably was our most famous hearing that we've done 
this congressional cycle was the steroids hearings. You're Mark 
McGuire and Sammy Sosa, with the interpreter in between.
    Actually, Canseco, Mark McGuire. Jim, you're in the Mark 
McGuire spot. You would need an interpreter, because Sammy 
wouldn't sit next to McGuire.
    Then we had a few more. John, you're Rafael Palmeiro. So I 
bid you say, ``And I did not do''----
    Mr. Shively. Correct.
    Mr. Souder. All right. ``Then retest the applicant.''
    That was the most unusual hearings we've done. But we do it 
on lots of different issues. And thank you for participating. 
So you can see it's wide ranging. And I'm looking forward to 
each of your testimony.
    You heard the first panel. Your official statements go on 
the record. That we have a flexible 5-minute rule here. You can 
go a little over, but I'd like to have time to ask some 
questions, too.
    So Mr. Menge, thank you for coming.

STATEMENTS OF MICHAEL MENGE, COMMISSIONER, ALASKA DEPARTMENT OF 
 NATURAL RESOURCES; JAMES STRATTON, REGIONAL DIRECTOR FOR THE 
  ALASKA OFFICE, NATIONAL PARK CONSERVATION ASSOCIATION; DAVE 
   WORRELL, COMMUNICATIONS DIRECTOR, ALASKA TRAVEL INDUSTRY 
 ASSOCIATION; RICK KENYON, PUBLISHER, WRANGELL-ST. ELIAS NEWS; 
  AND JOHN SHIVELY, VICE PRESIDENT, GOVERNMENT AND COMMUNITY 
                   RELATIONS, HOLLAND AMERICA

                   STATEMENT OF MICHAEL MENGE

    Mr. Menge. Thank you, Mr. Chairman.
    For the record, my name is Michael Menge, Commissioner of 
Alaska Department of Natural Resources. I appreciate submitting 
this testimony, for the record.
    I think I will just skip across some of the major areas, 
and then, based upon your previous practice, it looks like it 
will be spirited questions and answers. So I look forward to 
that.
    I'm sure, as Congressman Young has pointed out to you on 
numerous occasions--probably many more than you really 
necessarily wanted--Alaska really is unique. We were 
essentially frozen in amber. During the time that the rest of 
the U.S. infrastructure was being built, we were essentially up 
here cold.
    Our transportation infrastructure system developed along 
the rivers, the ocean, and there were no highways to speak of. 
Air travel came along about the time when the eastern and lower 
continental folks were coming out here to create economic well-
being for themselves. Air travel developed partly, at that 
time, so rather than go through the costly and expensive 
process of kind of jamming roads into the wilderness, we used 
the airplane. So Alaska's infrastructure simply never developed 
as it had across the ``Lower 48.'' And I think, in that, lies 
the issues that we confront most today.
    First, let me say that we really appreciate the Park 
Service today. Back in 1980, when ANILCA was first passed, it 
was a very uneasy relationship. There were a lot of young, 
eager folks coming in from the ``Lower 48,'' who had grown up 
in the traditional National Park System and brought with them a 
view of how the parks worked in relationships that had been 
established with the neighbors. And then that relationship grew 
strained, and there were several incidents that we wish had 
never occurred.
    I must say, under Director Blaszak, and the rest of the 
panel here, as well, it's a new Park Service that serves in 
Alaska today. And while we may disagree on some things, we have 
found, particularly her staff, very amenable to sitting down 
and working through the problems. And I think that's really one 
of the biggest issues we have to deal with.
    As you've mentioned, there was probably the greatest horse-
trading session in the history of mankind that occurred back 
when ANILCA was being put together. And if you were there, or 
heard about it, there were a lot of people with black magic 
markers and huge maps rolled out on the ground. The State was 
trying to establish an economic basis to grow an economy. They 
virtually had no existing infrastructure, industry or any 
structured economy, other than our fishing, a little timber, 
and tourism was nonexistent in those days.
    Certainly, the folks that you had spoke of, in the ``Lower 
48,'' who spent their lives in the conservation movement, had 
watched with dismay the way resources were allocated across the 
``Lower 48,'' and they realized that there was precious little 
of the special places left, and they were highly motivated to 
protect as much of Alaska as they could. Because you're hard-
pressed to find anywhere in this State that doesn't deserve 
special recognition.
    Speaking of Alaska, I admit I may come across as a little 
bit overly proud. The truth of the matter is, I've had many 
opportunities to walk and visit most of State, over my years 
here, and every place is very special.
    And I can't imagine the difficulty of trying to say that 
one area deserves protection over another. Certainly, Glacier 
Bay, Denali and Wrangell, those are extraordinarily special 
areas. But even the run-of-the-mill areas in the State are just 
spectacular in their size and grandeur.
    There was quite a struggle dividing it up amongst the 
Native corporations. Which was, as you recall, one of the most 
daring and creative experiments, probably in the 20th Century, 
was trying to figure out a way to break the chain of the 
reservations and establish an economic base.
    The State was doing very much the same in its selection of 
lands, and there were many, many dedicated professionals, back 
in D.C., who also had a vision for Alaska's park system, 
wildlife system, forest system. So it was a unique experience.
    And what emerged out of that--because you were talking 
about an inholder access. There were a lot of fire system 
lines, but there also was the concept we call ``Title 11,'' or 
``access.'' And we literally did simply say, ``We'll deal with 
that later.'' ANILCA said the access will be granted, and that 
was good enough for the time. As we sat down and started 
working through that, of course, that's the first time the 
challenges emerged, and challenges that we still face today.
    The largest issue that, at least during Governor 
Murkowski's term, time in office, has been in Glacier Bay and 
in discussions on what's the appropriate level of visitation. 
And the Governor felt very strongly that two ships a day was 
appropriate, and certainly the current administration is moving 
up toward that number. We haven't reached there yet. But I will 
say, for the record, that Superintendent Lee and Director 
Blaszak have been very helpful in working toward those goals, 
and that really is the biggest issue of the leading base.
    The McCarthy issue and the access issue is one that 
continues being a challenge. We really appreciate all the work 
that's been going on in that area, because it's a tough nut to 
crack. Because, as you can imagine, a road-in access is in the 
eye of the beholder, and seldom does an inholder envision 
access the same as a Park Service employee, and therein lies 
the problem.
    The uneasy truce that began in the 1980's I think has 
matured, as most of us have, and as our hair has fallen out and 
what little we have left is turning gray, we began to 
appreciate the positive benefits of the Park Service and the 
ability to grow an economy associated with that.
    Mining in the parks was a tough one. There's probably a 
world-class composite down in Glacier Bay, but even--it's under 
a glacier. And you can imagine the challenges associated with 
putting a mine in the park, under a glacier in that park. So no 
question of the quality and the quantity of the ore, but the 
ability to develop and bring it out, that is a challenge.
    You can imagine the discussions associated with that. How 
much is it worth? One person would say, ``Well, it's not worth 
anything, because you can never put a mine in the park,'' and 
someone else, a geologist, will stand up, red-faced, and say, 
``But it's worth billions of dollar,'' and then the fight was 
on.
    So we still have a fair number of challenges that we have 
to address. But let me say that we have come to appreciate the 
contributions that the National Park Service can make to the 
State. We recognize that these parks will never be the same as 
the parks in the ``Lower 48.'' Each and every one has a special 
and unique character that will have to be factored into any 
kind of resolution. And the only way that we will be 
successful, ultimately, is through the good will of the 
participants on both sides.
    We put together, while I served in the Senate with Senator 
Murkowski, now Governor, we put together some funding to put in 
an ANILCA training course, which had been taken by just about 
everyone in the Federal Government. It helped to explain how 
the process evolved, what the promises were, and whether those 
promises are being kept.
    And I think an understanding of the history--and there was 
a tremendous amount of ``trust me,'' when that legislation was 
passed, and that ``trust me'' only lasts so long as the people 
who drafted it remember. And once they're done, and they've 
gone down to The Monocle and enjoyed a few libations and 
congratulated themselves, it's left to others to carry out. And 
in trying to keep those promises alive, it's a challenge. But 
the ANILCA course has gone a long way in doing that.
    So I'll stop there, Mr. Chairman, saying that it's been a 
rough road, but it's gotten a lot better in the last 13 years. 
We have a long way to go, and our success will be based 
strictly on the willingness of both the State and private 
parties and the Park Service to work together. Because none of 
these issues are going to be easy, as was testified in the 
McCarthy case. And I'm sure you're aware of the case. Those are 
all just real tough nuts to crack.
    But there's no clear-cut statutory authority that anoints a 
winner prior to the beginning of the process. So we just have 
to roll up our sleeves and dig in. And I think therein will lie 
the ultimate resolution.
    As you said, the Park Service has evolved significantly 
across the country. And we will have the cost of energy, which 
(Indiscernible), will have profound effects on the systems up 
here, as it does with the Congress.
    I think we'd have a whole lot of fun talking about the 
horror stories of trying to get energy into our rural villages. 
It's $8 a gallon now and growing. And it's a very difficult 
social issue to deal with. The same pressures on those villages 
will also affect the future potential growth for the parks. 
We're just a long way away from any kind of established 
infrastructure, and you have to have a few bucks in your pocket 
to get out.
    Mr. Chairman, thank you for coming up and visiting our 
State. We appreciate your interest in the parks. And the 
Governor has certainly made his pledge to work with all the 
Federal agencies. Even if we bark at each other, from time to 
time, it's a--we'll figure it out.
    So thank you.
    [The prepared statement of Mr. Menge follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.013
    
    [GRAPHIC] [TIFF OMITTED] T5892.014
    
    [GRAPHIC] [TIFF OMITTED] T5892.015
    
    Mr. Souder. Thank you. I've heard new roads and bridges are 
expensive to build.
    Mr. Stratton, I want to thank you. First off, let me state, 
for your willingness, at all these hearings, to kind of do an 
overview of the status of the different parks. I appreciate it.

                  STATEMENT OF JAMES STRATTON

    Mr. Stratton. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify before you today about the national 
parks in Alaska.
    My name is Jim Stratton. I'm the Alaska Regional Director 
for the National Parks Conservation Association; lived in 
Alaska for 25 years. And just prior to joining NPCA, I spent 
about 7\1/2\ years as the Director of Alaska State Parks, 
actually working, for most of that time, for Mr. Shively, at 
the end of the table here.
    And as the chairman already knows, I also double as a disc 
jockey on Saturday nights for a show called ``The Arctic Cactus 
Hour.'' But my day job is with NPCA, the nonpartisan National 
Parks Conservation Association. We've been the leading voice of 
the American people in protecting and enhancing our National 
Park System for present and future generations.
    I've submitted written testimony I'm going to try and 
summarize here today. In addition, I did want to point out NPCA 
has submitted, for the record, testimony from two hearings that 
the Congressman intended to hold, but were unfortunately 
postponed, in Atlanta and Indiana Dunes. I wanted to make sure 
that was recognized.
    Well, as was mentioned in the Park Service panel, most 
everything in Alaska is different, including our national 
parks. We have a lot of them, we have more of them than 
everybody else, and it was greatly expanded, in 1980, with the 
passage of the Alaska Lands Act. And with all of those new 
parks, 10 new parks, in 1980, this required an immediate 
infusion of staff and infrastructure to support these parks, 
some of which are larger than most eastern States. And this 
rapid expansion in Alaska created definite growing pains, as 
the Commission mentioned, as park management strategies and 
policies, that worked well in the ``Lower 48,'' were found 
needing improvement and modification to fit both the unique 
physical environment in Alaska and the unique governing 
language found in ANILCA.
    It's navigating these unique challenges, to meet the intent 
of Congress to provide for access and subsistence while staying 
true to the Organic Act and the park protection purposes found 
in ANILCA, that is the difficult situation.
    In many cases, because ANILCA is still a young bill--it's 
only 25 years old--the Park Service and park advocates are 
still trying to determine just what Congress intended. ``What 
is a `traditional activity?' How can you access inholdings and 
still protect park values? How can we provide for sport and 
subsistence hunting and also provide for natural and healthy 
wildlife populations.''
    These are not easy questions and the answers are still 
emerging, and moreover, implementing this unique language, 
however, has created demands on the Park Service's limited 
operating budget.
    Now, when reviewing the base operating budgets of the parks 
in Alaska, we find a similar trend to parks in the ``Lower 
48.'' There's more to do with less money, and base operating 
budgets just aren't keeping track, keeping up with park needs. 
So as a result, park superintendents are forced to make 
difficult decisions about what programs and services to reduce; 
with the additional strain in Alaska on the budget from those 
unique aspects of park management that you only find here, made 
so primarily because of the size and the remoteness of our 15 
parks.
    One impact that I want to talk about briefly is that on the 
use of aircraft in our parks. Because of their vast size, 
remote nature, and lack of road access, parks in Alaska are 
best accessed by aircraft. Small airplanes are standard park 
vehicles in Alaska, like pickup trucks would be in the ``Lower 
48.'' Airplanes are used for ranger patrols, ferrying supplies 
to ranger stations, search and rescue, scientific research and 
monitoring, and basic transportation of staff from one side of 
the park to the other.
    Even Denali and Wrangell-St. Elias, which are primarily--or 
are the only two natural resource parks with an appreciable 
road access----
    Court Reporter. [Requested the witness slow down.]
    Mr. Stratton. I have the same problem as the chairman, 
you'll find out--which are the two national resource parks with 
any appreciable road access, require aircraft to patrol and 
monitor the majority of the park's backcountry, which is not 
road accessible. This is one of the big differences between 
Alaska's parks and those in the lower 48 States. Because 
without aircraft, all of the remote parks, including Wrangell 
and St. Elias, would not benefit from the natural and cultural 
resource protection provided by the park rangers.
    The recent cost in aviation fuel, coupled with the overall 
increasing cost of maintaining aircraft, are causing the parks 
in Alaska to reduce or eliminate the amount of time that they 
spend in the air, and that's not good for resources.
    Now, another of ANILCA's unique programs that has budget 
implications is subsistence, found in Title 8. Now, with the 
exception of Katmai and Glacier Bay park lands, the original 
Mt. McKinley National Park, and Kenai Fjords National Park, 
Congress made it clear that residents living close to or within 
boundaries of park units in Alaska would be allowed to hunt and 
gather subsistence resources necessary to perpetuate a 
traditional rural lifestyle. At the same time, Congress charged 
the Park Service to provide for subsistence in a manner that 
does not diminish the purposes and values for which the park 
was originally created.
    Now, providing for this balance, between perpetuating park 
resources and providing for subsistence, does have budget 
implications.
    The Park Service has to work with local villages to 
identify and meet subsistence needs, and then they need to find 
out the status of those subsistence resources: How many are 
being consumed and used by the residents. This takes research 
and monitoring money.
    Additionally, Congress also allowed for sport hunting in 19 
million acres of national preserves. And though the regulating 
body is different--sport hunting is regulated by the Alaska 
Board of Game. The Alaska Board of Game, ensuring that sport 
hunting does not negatively impact the purposes and values for 
which the park was created, such as healthy wildlife 
populations, has budgetary implications similar to those of 
subsistence.
    Now, I want to say that NPCA does not see hunting as a 
distinct activity that is a threat to the resources in the 
national parks. But the Park Service does need to know how many 
animals live in their parks and how many are being harvested 
annually, to ensure that the agency is maintaining healthy and 
naturally occurring wildlife populations, in accordance with 
ANILCA, the Organic Act and other management guidelines.
    And according to an analysis that we've just completed, the 
Park Service lacks the necessary resources to monitor wildlife 
populations and harvest levels to make sure that current 
wildlife harvest is not adversely impacting the ability to 
perpetuate natural and healthy wildlife populations.
    Now, this analysis is detailed in a report that we're just 
releasing today called, ``Who's counting? How Insufficient 
Support For Science Is Hindering National Park Wildlife 
Management in Alaska.'' And I have a copy here that I would 
like to submit, for the record.
    This report demonstrates that timely and scientifically 
sound population and harvest data, and the ability to analyze 
the information, is not always available to park managers. Now, 
the lack of data is not an indication of a lack of interest on 
the part of the Park Service, but rather is indicative of the 
funding shortfalls that affect the entire National Park System.
    Now, currently, there are two sources of harvest data that 
are available to the Park Service: One, is the Reporting Data 
base, developed by the Alaska Department of Fish and Game, 
where hunters send in their information; the second, is the 
Community Harvest Surveys, also developed by the Department of 
Fish and Game, where rural residents estimate how much has been 
harvested in those villages through an interview process of 
people going out to the villages and sitting down with the 
individual hunters and finding out what that harvest has been.
    Now, our new report examines both the population science 
and the harvest data and looks at the challenges facing the 
Park Service. And we have three recommendations that we are 
making to the Park Service to improve this situation. Now, 
clearly, each of these recommendations will take additional 
resources. The quickest way to address these problems is to 
provide additional funding through park operating budgets. We 
think this is basic scientific data that must be collected as 
part of each park's basic park operations.
    The first is: The National Park should increase support for 
conducting and analyzing population science in hunted species. 
Research is expensive, and we recognize that, but we don't 
think it's nearly as expensive as failing to maintain healthy 
wildlife populations. For ecologically important and/or heavily 
harvested species, park-specific plans should be completed that 
identify what studies are currently provided for in park 
operations budgets and other Park Service funding sources, or 
are provided by partner agencies such as the University or the 
State of Alaska. And then, look at the gap, where additional 
wildlife population research needs to be done.
    Second: The Park Service should support regularly scheduled 
Community Harvest Surveys. The available data in the reporting 
data base from the State of Alaska falls short of explaining 
the rural harvest activities in Alaska. The Park Service needs 
to make a commitment to providing additional funds and/or other 
measures to efficiently conduct Community Harvest Surveys in a 
timely and in a culturally sensitive manner. Any system that is 
used must be respectful of rural residents and their long-term 
tradition with the land. And we think that these surveys should 
be done every 7 to 10 years as a baseline for the wildlife that 
is being consumed in each of the 84 resident zone communities 
in parks and monuments and communities in close proximity to 
preserves.
    Our third recommendation is: That the Park Service should 
support a new position for a Statewide wildlife data manager, 
because collecting data is only part of the process. The Park 
Service also needs the expertise to incorporate the information 
into a Statewide data base, analyze it, and interpret the 
results for park managers.
    Mr. Chairman, I would like to thank you for bringing the 
committee to Alaska and focusing attention on the national 
treasures of our State. Alaska has the biggest, the most remote 
and the wildest national parks in our country. And when it 
passed ANILCA, Congress intended these preserves to be 
protected as intact wilderness ecosystems, while also 
perpetuating the ability of Alaska's rural residents, including 
those who rely on wildlife and other park resources for 
subsistence, to continue their traditional way of life; and for 
visitors from the ``Lower 48'' to come out, and come up to 
Alaska and learn and see and experience what our national parks 
have to offer.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Stratton follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.016
    
    [GRAPHIC] [TIFF OMITTED] T5892.017
    
    [GRAPHIC] [TIFF OMITTED] T5892.018
    
    [GRAPHIC] [TIFF OMITTED] T5892.019
    
    [GRAPHIC] [TIFF OMITTED] T5892.020
    
    [GRAPHIC] [TIFF OMITTED] T5892.021
    
    [GRAPHIC] [TIFF OMITTED] T5892.022
    
    [GRAPHIC] [TIFF OMITTED] T5892.023
    
    [GRAPHIC] [TIFF OMITTED] T5892.024
    
    [GRAPHIC] [TIFF OMITTED] T5892.025
    
    [GRAPHIC] [TIFF OMITTED] T5892.026
    
    [GRAPHIC] [TIFF OMITTED] T5892.027
    
    [GRAPHIC] [TIFF OMITTED] T5892.028
    
    [GRAPHIC] [TIFF OMITTED] T5892.029
    
    [GRAPHIC] [TIFF OMITTED] T5892.030
    
    [GRAPHIC] [TIFF OMITTED] T5892.031
    
    [GRAPHIC] [TIFF OMITTED] T5892.032
    
    [GRAPHIC] [TIFF OMITTED] T5892.033
    
    [GRAPHIC] [TIFF OMITTED] T5892.034
    
    [GRAPHIC] [TIFF OMITTED] T5892.035
    
    Mr. Souder. And I also have a statement from the Denali 
Foundation to put into the record, that we'll put in at the end 
of this panel. You refer to the statements for the Atlanta and 
Indiana Dunes hearings that we were going to do. We're going to 
hold this record open a little longer, to see whether or not 
those--the Atlanta hearing may actually occur yet this fall, 
depending on how things are going down in the park, the 
historic park. And some of the documents down there, at Indiana 
Dunes, may actually shift up to Michigan. But depending on what 
we're going to do, we'll put the statements in this record, if 
those don't get confirmed, because we don't want to lose the 
testimony in the parks process.
    Also, because, at the very least, you and I talk so fast--
one of the things, we'll have a little longer for this process, 
that when the staff gets each of the statements back, then get 
them out to the individuals and do a review--because I know 
it's hard to keep up with our rapid rate. But then we can 
probably ask any witness that gets a statement back to--not 
fundamentally change what we've said, but, at least, that would 
help a little bit with the accuracy of the hearing.
    Now, next, we'll move to the travel industry. Thank you for 
coming today.

                   STATEMENT OF DAVE WORRELL

    Mr. Worrell. Thank you, Mr. Chairman. We sure do appreciate 
this opportunity to participate. Ron asked me to express his 
regrets. He had to leave town for a family emergency. He 
prepared this presentation, and I'm going to try and follow his 
notes a little bit. So I will also be brief.
    The first thing I wanted to cover was a little bit of just 
basic visitor numbers for the State of Alaska. And what's 
interesting here is, this is a 10-year look at visitation in 
Alaska.
    Ten years ago, in 1996, we had a roughly equal number of 
cruise visitors and what we call ``other'' or ``independent 
travelers.'' As you can see, the cruise visitation has grown 
substantially over the years, whereas the independent 
visitation has remained roughly consistent.
    Tourism is very important to Alaska's economy. We provide 
roughly 31,000 jobs. And that's the State of Alaska Department 
of Labor statistic. We're a big contribution to the State of 
Alaska's economy: Roughly $1.6 billion, in direct and indirect 
expenditures, for the industry; and a total sales, when you 
include the multiplier effects, of $2.4 billion. We're just 
behind the oil industry, tied with the commercial fishing 
industry, and ahead of timber, mining and agriculture for the 
State of Alaska.
    All of our marketing for the State of Alaska is based on 
research, and we did some research in 2002, following up on 
previous research.
    People come to Alaska for three things; mountains, glaciers 
and wildlife. You can go back to 1899, to the Harriman 
Expedition, and they came to Alaska for the same reasons; 
mountains, glaciers and wildlife.
    44 percent of our visitors indicate that they went to 
Denali National Park. 76 percent of the highway travelers 
mentioned visiting national parks or scenic wonders in the 
State of Alaska. The national parks and park units play a vital 
role to tourism in Alaska.
    I want to mention a few of the challenges and obstacles the 
tourism industry faces. Clearly, public lands access is a 
crucial issue for the tourism industry. Infrastructure quality, 
it's very important for our industry to have a quality 
experience for visitors to partake in. We want to improve the 
dispersal of visitors. It's important for people, to have a 
good experience, to get to a variety of different locations.
    And finally, we want to increase recognition of all of 
Alaska's public lands throughout the State. There is 15 park 
units, and people really only know of two; Denali and Glacier 
Bay.
    So, the last couple of years, we've had a program, that was 
funded by Congress, of $750,000, to market Alaska's national 
parks, particularly parks other than Denali National Park. And 
the object of that program was to increase awareness of the 
parks, to encourage visitation to Alaska's lesser known parks. 
And we believe that was a very successful program, and it's one 
we hope to use as a model for other areas.
    In closing up, we've got a few priorities that we'd like 
the committee to look at. And probably one of our biggest 
priorities is the south side of Denali National Park, 
development at Curry Ridge. There is a Record of Decision, 
signed on June 30th. Now we hope that there--it's a cooperative 
venture between the State of Alaska, the National Park Service 
and local communities, and we think this will be a great 
addition to spread the visitors to Denali National Park out of 
that core-entrance area.
    We think it's time for road improvements at Wrangell-St. 
Elias National Park. And we are working with the State of 
Alaska and the National Park Service in hope that happens 
sooner rather than later.
    And once again, we believe it's important to expand our 
marketing efforts to market all of Alaska's park lands.
    And we have established a great relationship with the Park 
Service, over the past several years, and we certainly hope 
that to continue, and also, incorporate other public lands 
management agencies, as well.
    And with that, I'll close my testimony. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Peck follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.036
    
    [GRAPHIC] [TIFF OMITTED] T5892.037
    
    [GRAPHIC] [TIFF OMITTED] T5892.038
    
    [GRAPHIC] [TIFF OMITTED] T5892.039
    
    [GRAPHIC] [TIFF OMITTED] T5892.040
    
    [GRAPHIC] [TIFF OMITTED] T5892.041
    
    [GRAPHIC] [TIFF OMITTED] T5892.042
    
    Mr. Souder. And Mr. Kenyon.

                    STATEMENT OF RICK KENYON

    Mr. Kenyon. Thank you, Mr. Chairman, for this opportunity 
to testify about the important issue of community and National 
Park Service relations.
    It's apparent that you have a strong desire to see our 
parks become better places to visit, and that's a desire that 
my wife and I share.
    Before I start, I want--could I just clarify--I know you've 
talked a little bit about the time we have for additional 
testimony, by--this hearing was not well publicized here, in 
Alaska, and I know there are some that would like to submit 
testimony.
    Mr. Souder. Yes. We'll take, within reason--any written 
testimony will--obviously, when people--in questioning, it's 
under oath and has a different meaning----
    Mr. Kenyon. Sure.
    Mr. Souder [continuing]. Than written testimony. But as 
long as it's reasonable and well thought out, I would be happy 
to take written testimony from anybody who presents written 
testimony.
    Mr. Kenyon. Is there--the 5 days, 10 days.
    Mr. Souder. Generally speaking, we do have 2 weeks. But if 
it takes longer than that, we're going to leave the hearing 
record open (Indiscernible).
    Mr. Kenyon. Thank you very much.
    My name is Rick Kenyon. My wife, Bonnie and I, have lived 
full time in the McCarthy area since 1977. You might imagine, 
I'm very much out of my element here today. We've been contract 
weather observers for NOAA and the FAA since 1983. We operate a 
bed and breakfast near McCarthy. Since 1992, we've published a 
news magazine called the ``Wrangell St. Elias News. Each spring 
we publish ``A Visitor's Guide to Kennicott and McCarthy,'' 
which is given free of charge to area visitors. We also pastor 
the McCarthy-Kennicott Community Church. And finally, we're 
both volunteer interpretive rangers at the Park Service, 
staffing the McCarthy Road Information Station on Friday nights 
from 5 to 8 p.m.
    For 26 years, we've watched the interaction between the 
rural Alaskan communities of McCarthy and Kennicott and the 
Park Service. For the majority of those years, it must be 
characterized as adversarial. Fortunately, much progress has 
been made, during the past 2 years, under Director Blaszak.
    When Park Service historian Jeff Bleakley wrote the 
official administrative history of Wrangell-St. Elias, he 
unfortunately had to title it, ``Contested Ground.''
    In the spring of 1994, a hearing, similar to this one, was 
held here in this same building. Anchorage Voice of the Times 
Reporter Dennis Fradley summed the meeting up this way, ``One 
after another, each individual told of how he or she was being 
mistreated by the Park Service. They painted a picture of an 
agency gone amok--a Federal bureaucracy that has become an 
arrogant despot, trampling individual, property and State 
rights at will.''
    I wish I could tell you that things changed for the better 
right after that hearing, but unfortunately, they got worse.
    Nearly 10 years later, during the summer of 2003, community 
relations between McCarthy and the National Park Service hit an 
all-time low.
    In April of that year, the Park Service suddenly and 
unexpectedly posted and closed a historic mining road that the 
communities of McCarthy and Kennicott had used for 80 years. 
The Park Service suddenly said it did not exist.
    After the townspeople loudly protested, the Park Service 
then modified the closure. They said that any resident could 
use the road for subsistence, except for the people who 
actually lived up the road, because they might be using 
subsistence as an excuse to actually travel from their home to 
the nearest town, which was McCarthy.
    Within a few months, armed, flak-jacketed rangers were in 
the family's yard, with a host of scientists, in an apparent 
attempt to prove that the family had somehow damaged park 
resources by using the road that served as their driveway.
    We sent a reporter to the scene, a neighbor and a mother of 
five. She was able to observe, unseen, from the family's home.
    When she returned to McCarthy, she got off the plane and 
burst into uncontrollable sobbing. She said she had never 
believed that her government was capable of such actions.
    It is my firm belief that only prayer and the grace of God 
averted bloodshed in the Wrangells.
    Fortunately, the Alaska Regional Director that allowed this 
atrocity is gone. The Superintendent and the Chief Ranger who 
engineered it are both gone.
    Unfortunately, the Superintendent was rewarded with the 
prestigious Stephen T. Mather award shortly after this 
incident. There was no question but that he was being rewarded 
for his attacks against inholders at Wrangell-St. Elias. Also, 
unfortunately, the Chief Ranger's assistant was promoted to the 
current Chief Ranger position at Wrangell-St. Elias.
    Alaska's current National Park Service management has made 
moves in the right direction. Director Blaszak appointed the 
very capable Jed Davis as Superintendent at Wrangell-St. Elias. 
Great strides toward understanding and cooperation between the 
Park Service were made under Jed's leadership. Much progress 
was made toward healing the wounds. Sadly, cancer claimed Jed's 
life this last spring. It is hoped that the next superintendent 
will display Jed's commitment to working fairly and honestly 
with the communities in the park. Sadly, some of the gains made 
have already eroded under interim management.
    There's much to say concerning access to inholdings, 
particularly the use of the National Environmental Policy Act, 
which has been, in the past, used to deny access to inholdings. 
However, time is short, and these things are covered in my 
written testimony.
    The May 8th edition of the Anchorage Daily News published 
an Op-Ed by McCarthy resident and business owner Neil Darish, 
who pleads for understanding of the importance of rural 
communities within Alaska's national parks.
    Yesterday, Sunday's New York Times reviewed Dan O'Neill's 
book, ``A Land Gone Lonesome.'' This noted Alaskan historian 
describes how the Park Service eliminates people from Alaska's 
vast parks. New personal stories cease to be created and 
tradition dies. All of this is completely unnecessary. Even at 
the height of human occupancy of these areas, 100 years ago in 
the gold rush, only tiny parts of these parks were ever 
occupied.
    And I have a copy of the book I'd like to give to you, Mr. 
Chairman, if I could.
    We urge the committee--excuse me.
    Nature and thriving pre-existing communities are not 
mutually exclusive concepts. Around the world, administrators 
of protected areas have proven this. In Ohio, Cuyahoga Valley 
National Park Superintendent John Debo has begun to implement 
these better management concepts.
    We urge the committee to look at our situation here in 
Alaska's parks, and we are confident that you will see that a 
break from past aggressive practices against park landowners 
and communities will deliver far better value for the 
government budget while maintaining resource protection and 
enhancing visitor enjoyment.
    We have appreciated the unprecedented outreach from 
Director Blaszak and her deputy, Vic Knox these past months, 
and we see commitment and leadership that can, indeed, put the 
``service'' back in the National Park Service. It will, 
however, not be easy.
    My desire--and I believe that Marcia and Vic share that 
desire--is that instead of ``contested ground,'' residents and 
park managers will find ``common ground'' and learn to work 
together. I believe that all Americans will benefit from this 
effort.
    Thank you.
    Mr. Souder. Thank you for your willingness to testify 
today.
    [The prepared statement of Mr. Kenyon follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.043
    
    [GRAPHIC] [TIFF OMITTED] T5892.044
    
    [GRAPHIC] [TIFF OMITTED] T5892.045
    
    [GRAPHIC] [TIFF OMITTED] T5892.046
    
    [GRAPHIC] [TIFF OMITTED] T5892.047
    
    [GRAPHIC] [TIFF OMITTED] T5892.048
    
    Mr. Souder. Our last panelist is Mr. Shively. Thank you for 
coming today.
    Mr. Shively. Yes, sir.

                   STATEMENT OF JOHN SHIVELY

    Mr. Shively. Mr. Chairman, thank you very much for having 
me.
    I will say, for the record, I never have used steroids, nor 
do I intend to. So let's get that out of the way first.
    The other thing I'll say is, going last is great, because 
everybody's already said everything you wanted to say, pretty 
much. And I think that there's a lot that's been said here 
today that I certainly support but will not repeat for you.
    I've been in Alaska over 40 years. Among other things, I 
have served as--in the same position that Mr. Menge currently 
holds. Also, I spent a fair amount of time in Washington, DC, 
working for a Native corporation during the D2 debates. So I do 
have some experience there.
    What I want to talk to you about a little bit today is sort 
of how the cruise industry interacts with the national parks. 
And particularly, for Holland America Line, which I represent, 
how important the park system is to us and to our program, and 
also, to our guests. Therefore people that come to Alaska on 
Holland America lines can visit a whole host of national parks. 
Of course, Denali and Glacier Bay are the two that people most 
often think about, but Kenai Fjords, Gates of the Arctic, the 
Klondike National Historic Park in Skagway, and the Klondike 
National Historic Park in Seattle, Wrangell-St. Elias, the 
Sitka National Historic Park, Kenai--and would also have people 
that can see the Yukon-Charley National Preserve, the Kenai 
National Wildlife Preserve and Misty Fjords National Monument. 
Not that you'd probably do it all in one trip, but all of those 
are possible.
    We have spent a fair amount of time trying to work with the 
park system, particularly in places where there's a large 
impact, to develop interpretive programs, so our guests have a 
better understanding of the national parks and what they're 
about. And we continue to grow that program.
    This year alone, we started a new program in Seattle, with 
the Klondike National Historic Park, where we have rangers 
coming on board during the day, while the ship is loading. So 
the passengers can get an idea about the Klondike park, what 
role Seattle played, and how that all fits together, before 
they even take off.
    Also, we added an interpreter, in Wrangell-St. Elias 
National Park, for those ships that visit Hubbard Glacier. I 
think you had an opportunity last week to see the interpreter 
program that has been developed on our ships in Glacier Bay, 
something that we're particularly proud of.
    We think that our working relationship in Glacier Bay, I 
think, stands as a model for what can be done between what some 
people refer to as the ``industrial side of tourism'' and the 
national parks. And of course, our impacts on Denali have also 
been talked about.
    I think a couple things, just briefly.
    Access will always be an issue. There's certainly been a 
debate in Glacier Bay about how many cruise ships. And our 
experience with the Park Service is that they have given, 
certainly recently, a thoughtful consideration to that. They 
are moving slowly to look at how that might be increased. There 
are some people, I think, in this that believe that there 
probably can be unlimited traffic there, and we don't believe 
that would be good for the park or, as a matter of fact, even 
good for us. But we think the process that's been set out there 
is an excellent one.
    Certainly, access to Denali, as the number of people that 
visit Denali grows, will continue to be an issue.
    We also support the south side development. And as an 
Alaskan, I'm somewhat embarrassed at how long it has taken to 
get even as far as we've gotten today. There have been numerous 
studies on that. It's certainly something that I think most 
people, that look closely at it, would agree should take place.
    Education is important. I was talking to Nancy Sears this 
morning. And as part of what's being done now in Seattle, at 
Klondike National Park, they're asking people that are going to 
Glacier Bay if they know it's a National Park. And actually, 
she says it's only averaging about 5 percent. I mean, they know 
they're going to see glaciers, but they don't know it's a park. 
I think after they've been there, they know it's a park.
    And I think that's something that's an important part of 
what our industry does; it brings people to these places that 
may not understand how many parks we have in Alaska and what 
those parks stand for. So that's a very important part of what 
we do.
    I think something else that's very important, is that a 
study that was done several years ago by ATIA, showed that 27 
percent of the people that returned to Alaska first came on a 
cruise. So we can't show the whole State, particularly in the 
short time allotted that our guests are with us, but we can 
give people a taste of what's here, and they can come back. And 
that's when they can see some of the parks that are very 
difficult to get to, or some of the ones that are easy to get 
to, that they missed the first time.
    We recognize that the Park Service faces funding 
challenges. As you've mentioned, I think, all of government 
does these days.
    We're pleased that you're holding these hearings. We think 
that it gives an opportunity for people to talk about specific 
problems here. We think that we have a very good working 
relationship with the Park Service. It's something that has not 
always been a relationship where we agree on everything, but I 
think we've been able to work together, to work most of our 
problems out, and we look forward to making that a better 
relationship as time goes on.
    And we really appreciate the opportunity you've given us to 
testify. Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Shively follows:]

    [GRAPHIC] [TIFF OMITTED] T5892.049
    
    [GRAPHIC] [TIFF OMITTED] T5892.050
    
    Mr. Souder. And I appreciate the opportunity to go on 
board, in Glacier Bay, to see how most people see it aboard a 
ship, (Indiscernible) too, unfortunately, because I wasn't real 
high. And also, the next day, was able to go out with the 
rangers on some of their business and see it from a little boat 
perspective and, as well as, (Indiscernible) a third 
(Indiscernible) the actual environmental code. And it's real 
interesting because, depending on how you look at the park, it 
looks different, just as it does in the Wrangells, when you're 
seeing it from the air or on the ground, or trying to drive the 
road.
    Each park has multiple visitations. I think part of the 
reason--as someone who's visited here a number of times--that 
people are confused is, is that, generally speaking, if we had 
anything--I mean, I have to say, for the record, I'd rather 
have glaciers retreating than advancing, because Indiana used 
to all be under glaciers, and I wouldn't be here. At the same 
time, if we had any sign of anything like a glacier in the 
State of Indiana, it would certainly be a national park. And 
people are used to seeing these dramatic features be under a 
park item.
    When you come into Alaska, some are national parks, whether 
it's at Kenai, with Exit, or other similar State parks. 
Multiple ones are State parks that I visited. Mendenhall is 
Forest Service.
    What's Tracy Arm?
    Mr. Stratton. Forest Service.
    Mr. Souder. Forest Service.
    You approach it from so many different ways, as a visitor, 
it's very confusing, as to what's a national park, what's a 
State park, what's Forest Service, what's a hoot, in a sense, 
other than you know it's pretty dramatic.
    There are multiple ways to start this. But, Mr. Menge, let 
me start with you in this, probably. Well, to a number of you.
    I'd like to talk about Glacier Bay a little bit. That's 
where I just was. One of the debates is how to get more, kind 
of, land visitors there, or a way that some people would stay 
at the park, in addition to staying through a ship.
    This is just my personal opinion. I wouldn't put a lot of 
big boats in the park part of the cove. It's already tight, and 
it's (Indiscernible) in the park. But advocates that study 
this--they're already having problem with their dock. Is there 
any possibility that something can be worked out with their 
dock, either for a marine ferry or other landings there? I know 
one thing that restricts it is, is you have to fly over from 
Juneau. Right? Any thoughts on it?
    I know that there's some discussions going on. And don't 
disclose anything you can't disclose, but maybe you can submit 
it after you've worked some of these things through.
    I know this has been of particular interest to Senator 
Murkowski--Governor.
    Mr. Menge. Yes. They have been following this, and I think 
he's shared his views with the Park Service for many years now 
related to this.
    Alaska has a never-ending series of trying to find a way to 
accomplish a task. Certainly, there are discussions on their 
two State ferries (Indiscernible) trips. The residents of this 
State have used part of the cove to--as a marine facility out 
on the Stavis side. There is nothing specific that's being 
worked out, yet we're constantly working.
    I think the Governor's initiative, with Superintendent Lee, 
to bring the State ferries into Glacier Bay, that was new this 
year. And there are a couple of earlier sailings and a couple 
of late sailings. So that was an attempt to try to make it more 
affordable to get in and out of there.
    We're always looking for new and better initiatives, but 
it's just so expensive. It's expensive to get to Juneau, and 
then it's expensive to get to the Stavis. If you want to get 
into the backcountry, then it's expense upon expense upon 
expense. So that's going to be our biggest challenge.
    I think you pointed out earlier, the cost of energy is 
making that difficult climb even more difficult. But we don't 
give up. And as long as the Park Service is willing to work 
with us, we have no shortage of entrepreneurs with good ideas. 
And we will continue to discuss those whenever they emerge, to 
see if any of them make sense and are compatible with the Park 
Service.
    Mr. Souder. Is there a physical reason why the Stavis dock 
and harbor area is not able to take boats?
    Mr. Stratton. No, not that I'm aware of. It's been a long 
time since I've been there. So Tomie Lee probably has a much 
better answer to that question than I do. I do know that it's a 
challenge, given the marine approach there, too, to provide 
those services. But since she is a resident, I would certainly 
defer to her.
    Mr. Souder. Do you know any physical reason why that port--
geological reasons? Is it less protected? Do storms hit it 
harder? Why that would be--not work, as opposed to boat 
(Indiscernible).
    Ms. Lee. The dock has been there for decades, and it has 
outlived its useful life. And I believe that there is--well, I 
know that there is a Memorandum of Agreement that's been 
signed, between the State and city of Gustavus and the National 
Park Service, to look for funding and to replace the dock there 
at its present location.
    Mr. Souder. It's not a dock question--it's a dock question, 
not a depth-of-water----
    Ms. Lee. That's correct.
    There are some issues with that particular location. There 
is a long fetch, with the westerlies, when they're blowing. 
However, those are things that have been there long before the 
dock, the original dock was put in. And it's managed to 
function there for, as I say, a number of decades; over 40 
years. And so we don't believe that there's the issue why the 
dock cannot be built there. Otherwise, we wouldn't be working 
with the State and the City to put one in, sir.
    Mr. Souder. Thank you.
    Mr. Shively probably would be best for this question.
    Earlier, on Denali, I was sooner going to ask, by the way, 
one followup question. I wanted to ask, for Denali, that we get 
into this climbing, because--if we can get data on the 
climbing, pressures that climbing puts on the park, and where 
that's heading--I got distracted, and I wanted to ask that. 
Clearly, people are staying longer around Denali. Does that 
mean people are taking longer cruises, they're staying on the 
land more, that they're staying in Anchorage less? What is 
exactly happening?
    Mr. Shively. Basically, an Alaska cruise is a 7-day cruise. 
And there are basically two different, sort of, itineraries: 
One, leaves either Seattle or Vancouver and just makes a round 
trip and goes back to where the people started; the other is, 
leave Vancouver, go through Southeast Alaska, and come across 
the gulf, and the passengers disembark at either Whittier or 
Seward, and then new passengers get on and go the other 
direction.
    Most of the land tour business comes from cross-gulf 
sailings, for the major lines. And now I've forgotten the 
question.
    Mr. Souder. Why would people be staying overnight----
    Mr. Shively. Oh, I'm sorry; it----
    Mr. Souder [continuing]. At Denali?
    Mr. Shively [continuing]. Was the light.
    Well, what's happened is, as a marketing tool, I think 
first Princess, and now we've followed--I'm not sure about 
Royal Caribbean--have gone to a 2-night Denali.
    It probably, may mean a longer cruise tour, that's one 
option; it also may mean less time in a place like Anchorage, 
or it may mean not going to Fairbanks. I think there are a 
variety of different things that happen as a result of the two 
nights in Denali.
    Mr. Souder. Is the travel industry looking at this to 
figure out what kind of shift is occurring? Obviously, the 
Fairbanks Chamber and the Anchorage Chamber are not interested 
in promoting people not going to their towns and going up to 
Denali longer.
    And one of the debates here is, from the Federal 
Government's standpoint, if we're going to invest dollars, our 
dollars shouldn't be dollars that are shifting resources within 
the State.
    The question is, is there an issue--are people staying 
longer in Alaska? Is it the man that's coming up, or citizens 
around the United States, to come in and say, ``Look, we want 
our tax dollars mutually shared for things in Alaska''? That's 
one of the----
    Mr. Worrell. Over the years, the average length of stay has 
increased. I think over the last decade, we've basically 
increased the length of stay for about a day, a day and a half.
    You know, about 60 percent of the folks who come to Alaska 
take part in a cruise, and of those about 30 percent do a land 
tour. So, you know, you're looking at a large number of people 
who do that circular trip up and down Southeast Alaska, and 
then roughly 30 percent do the cross-gulf and then participate 
in land tours.
    Now, some of those are provided by the tour companies, and 
other folks do something independently, whether it be taking a 
day to fish the Kenai River or any number of different options.
    Mr. Souder. Alaska is such a huge challenge to outsiders. 
And since I'm an outsider, I can say this. I know, in Alaska, 
this would be heresy, but--even if we drill in ANWR, which is 
hardly a done deal, that oil revenue's going to decline. Your 
figures on what's going to come from visitors is going to 
increase, presumably, and continue to increase, and your amount 
from oil is likely to decrease. That if you continue to give 
the oil revenue to the citizens of Alaska constantly, as 
opposed to having a fleeting source that wasn't reinvested.
    If we had done that with our rail lands, for example, in 
Indiana, I mean, instead of putting them into the universities, 
had given all as rebates, we would be in a real pickle right 
now. And then the rest of the taxpayers in the United States 
are only going to do so much of bailing out, of Alaska not 
taking charge of some of their own responsibilities here.
    And that's what I say with that is, I know we get resources 
out of Alaska, but we got resources out of Texas, and we got 
resources out of Oklahoma, and we got resources out of Indiana. 
And that now what we see is many of our young people moving out 
west and moving to other States because they have more 
wilderness areas, more areas to hike, and we're paying for much 
of that.
    Now, there--so visitor services, the travel industry, which 
is obviously of huge benefit to Alaska, and is basically people 
coming from my State and other States to Alaska, it's a 
favorable type of thing. It seems that fishing is obviously--I 
presume, you--there's two types of fishing. When you said 
fishing is a--other than oil, is a huge industry for tourism, 
is the commercial fishing, presumably, is declining.
    Mr. Worrell. Well, basically, tourism and commercial 
fishing are basically tied, in terms of economic impacts to the 
State.
    Mr. Souder. Canneries, as a traditional business, is that 
declining?
    Mr. Worrell. You know, I'm not a fish expert. I will----
    Mr. Souder. (Indiscernible)----
    Mr. Worrell [continuing]. Tell you that----
    Mr. Souder [continuing]. Stated that commercial fishing, as 
opposed to people coming up to Alaska to fish, is increasing.
    Mr. Worrell. Prices are down for commercial catches of 
salmon. So presumably, that means something. I'm not a fish 
expert.
    Mr. Souder. Do any of you know anything--Mr. Menge.
    Mr. Menge. Mr. Chairman, I can say that commercial fishing 
is increasing, and it's been through the development of 
additional fisheries, and also, a huge amount of effort is now 
being put into upgrading the quality of the fish. We're 
competing with the farm-raised salmon around the world. So 
we're shifting into a value-added market because of the 
Alaska's clean waters and seas. So it has increased slightly 
over the last 3 years, as commercial fishing has been 
developed.
    And sport fishing----
    Mr. Souder. Sport fishing (Indiscernible).
    Mr. Menge. Sport fishing is certainly at a steady pace, as 
well.
    And of course, you can imagine the conflicts between those 
two. So, you know, we're working that out.
    But because of the new processes and the new additional 
fisheries, like the bottom fisheries, we have seen an increase.
    Mr. Souder. As you look at where Alaska's going to get it's 
sources of revenue, that you're going to have marginal 
increases in fisheries.
    Mr. Menge. That's correct. Marginal increases of the 
fisheries and in forestry.
    Mr. Souder. In timbering, you're not going to get a big----
    Mr. Menge. No, it's not going to be significant. Of the----
    Mr. Souder. Oil, there's not going to be increases. 
Hopefully, it can sustain, as one declines.
    Mr. Menge. We would hope to be able to lower the decline in 
oil.
    But one of our huge efforts right now is--I've focused, 
almost all of my life, over the last 3 years on getting the gas 
line built. Because the North Slope has 35 trillion cubic feet 
of reserves and probably an additional 250 trillion cubic feet 
in mineral resources.
    So getting a gas line built is consuming almost all of our 
waking time over the last 3 years.
    Mr. Souder. Thank you.
    I think it's fairly safe to assume that there would be 
people who would be upset if you tried to mine in Glacier Bay 
National Park. But beyond that, in mining, is that--how does 
that factor into----
    Mr. Menge. Mining, of course--yes, mining is a huge part of 
Alaska, always has been, and I hope always will be.
    In the past 3 years, we've brought the Pogo Mine into 
production. We have just completed the permitting and are under 
construction of another mine, the Kennington Mine, down in 
Southeast Alaska. And just yesterday, Friday, I signed Alaska 
State permits for the Rock Creek Mine in Nome.
    So mining is always going to be a big part of the State. It 
makes a significant contribution to the local economy. It does 
not provide for a large inflow of cash to the State treasury. 
So the real benefits from mining are going to be secondary to 
(Indiscernible) associated with mining in the region.
    But we're faced here with--the biggest challenge we face 
here is no infrastructure. Each of these mines that's brought 
on has to be so robust as to essentially be able to provide the 
fuel that it needs to generate its own electricity and fly the 
commodities out. So you can imagine the challenges associated 
with that.
    So if we had roads, other than from our mining 
infrastructure, it would be significant enlargement to a huge 
mineral base.
    Mr. Souder. In your opinion, when you look at the 
inholdings in the--do State parks have inholdings, too; I 
presume.
    Mr. Menge. Certainly.
    Mr. Souder. When you had all these maps out, with the magic 
markers, and since we have both you and Mr. Shively, and Mr. 
Stratton--were all--presumably, had magic markers that day, or 
were around people who did, in a variety of positions. I don't 
know who was with senators or Governors, or where, but at 
different times. Let me ask this question first.
    Are most of the inholdings, where mining requests come, or 
are likely to be mined, are they individual native Alaskans or 
Alaska Natives, who were looking at smaller development of 
their own land, or were these speculative corporate purchases? 
And then, without even getting into the secondary question, of 
should an individual have a right to sell his land for a profit 
to the larger corporation.
    Mr. Menge. I would start this out, but since I was always 
the pretty one and John was the smart one, he was involved a 
lot more in the actual process with the ANILCA lands. I was 
just a young geologist looking to find oil in the ground.
    Most of the inholding issues, or significant inholding 
issues, were prior existing rights. They were mining claims 
filed in the 1872 Mining Law and had been carried through to a 
patent. So that represented a huge bulk of the inholdings.
    I would say that a large majority of those inholdings are 
related to the smaller placer mining operations. Everyone 
recognized the challenge, even with a small placer mine. And 
while the mineralization, under the national parks, is 
staggering in it's proportion, I think most of the larger 
companies recognize that, under the best of the circumstances, 
it takes 10 to 15 years to permit of a mine. If you were to try 
to permit a large world-class mine in a park, a national park, 
you would find the challenges far more daunting.
    So I think that, by virtue of the heighth of the hurdle, 
people should move toward State land and toward Native lands. 
Not that the mineral content is less on Federal land, but it's 
just that the challenges associated with permitting a mine is 
daunting.
    And John, I'd ask you to fill in the blanks there, a little 
bit.
    Mr. Shively. Mr. Chairman, I mean, clearly, in the late 
1970's, when ANILCA was being debated, people realized there 
were a variety of inholdings.
    And you asked earlier, you know, sort of what was the order 
of things. And of course, the Statehood Act was passed first, 
and so the State started selecting lands certainly before 
ANILCA. Then, the Alaska Native Land Claims Settlement Act came 
along, which gave the Natives the right to the title of about 
44 million acres. They were able to--basically, they had to 
stop the State selections, as a result of a land freeze. Then 
they actually, then, sort of came ahead of the State.
    But also, as part of the Claims Act, there was the 
provision that the Secretary was to withdraw up to 80 million 
acres. He actually withdrew considerably more for consideration 
of what eventually became ANILCA. So those sort of came third 
in time.
    But the State, actually, I think, just kept getting pushed 
aside. I mean, what they had, they had. But they couldn't get 
any more until the Natives had resolved their issues. And the 
parks, once the boundaries were established, if it was still 
Federal land, it was going to remain Federal land.
    My impression is, although I must say I've never really 
looked at it, specifically, that the vast majority of the 
mining claims were individual placer miners, not large 
corporate stakings.
    Mr. Souder. And if there was anywhere that the State 
thought that major mines could be developed, with reasonable 
access, would the State have claimed those areas? Like, I 
assume, the oil companies were speaking up early on, in ANWR, 
that would have led to a destination in that, that says, 
``potential future oil development.''
    Was that done for any other kind of mineral?
    Mr. Shively. Well, I don't want to get into a huge debate 
here about who wanted what.
    I think that certainly people that were interested in the 
parks and the wildlife refuges, and the other conservation 
system units, looked at where they thought there was 
mineralization, tried to put some of those places into the 
conservation system units, and in other places, tried to block 
access out.
    And if you look, particularly at the Gates of the Arctic 
boot, I think you can see there was a mining area near Shungnak 
and Kobuk, on the upper Kobuk River. And clearly, that was 
designed to make difficult mining--getting access to the ore 
out difficult. It was a whole part of the debate.
    On the other hand, the Red Dog Mine was originally part of 
one of Secretary Morton's withdrawals. That was a result of 
work done by the mining industry and by NANA, part of what I 
did, that area was eventually removed from what became a 
preserve and did become a mine and access issues. Those access 
granted by Congress across the Krusenstern National Monument.
    But I think, clearly, there were people in the conservation 
movement that would have just as soon not seen any more mining. 
And then the other side people, the mining industry and the 
circuits at the State, tried to protect some of those 
opportunities. And ANWR, of course, is the one that's the most 
famous.
    Mr. Souder. I have a couple other subjects, before we go 
back to Wrangell and before I get into the wildlife.
    Mr. Stratton, I wanted to ask you, from NPCA's perspective, 
you've been State parks director. You've clearly worked with 
NPCA. Well, this was an interesting--that is a very helpful 
discussion. Because it wasn't just that the State said, ``Where 
are the best potential mines that we might develop future 
revenue,'' it's also that--you're suggesting that the--those 
with environmental interests were also doing the same thing, 
trying to claim the same land, to keep the mining from 
occurring.
    How does--given that you're an Alaskan, given the kind of 
mixed picture of how the economy in Alaska has been developing, 
how does the NPCA look at, one, the inholdings question; two, 
where mining can be done in Alaska? How do some of these things 
work through? Because that's undergirding and vague. If that 
wasn't there, the whole debate would be a whole lot easier.
    Mr. Stratton. I look at the national parks in Alaska as a 
resource that, as the world gets smaller and as the world gets 
more populated and resources get used up in other parts of the 
world, our national parks are going to become scarcer and 
scarcer as a representative of what the planet used to be like. 
And the value of those areas, to people who want to experience 
that kind of, you know, wildlife, glaciers and mountains, the 
reason that people come to Alaska, Alaska is going to have a 
corner on the market, if you will, on those kinds of resources.
    So I see our national parks as a savings account for future 
economic opportunities, and they're only going to get more 
valuable, as we go out in time, as those kinds of lands in the 
rest of the world disappear.
    Now, recognizing there are valid existing rights within 
some of these parks--and I think ANILCA made it clear that the 
owners of those rights had access opportunities--then it 
becomes a discussion, if you will, facilitated by the Park 
Service, between the owner of the inholding and the American 
people to say, ``How can we provide that access in a way that 
meets the needs of the inholder and still protects the purposes 
for which the park was created?'' And as you can well imagine, 
that sometimes is a very lively debate.
    Mr. Souder. Mr. Kenyon, let me ask one other question 
before you--on that. Maybe Mr. Shively.
    Wrangell is really unusual, because there's 500,000 or 
700,000 State acres of inholdings inside of the national park 
preserve, and like 200,000, I believe, are University of 
Alaska, much of it concentrated along the McCarthy Road. Which, 
in my opinion, after ANWR's over with, Wrangell's going to be 
the big debate. Because there are several dynamics here that 
suggest that Wrangell and Glacier Bay are too big a basis to 
expand the tourism industry. The question is how do you expand 
the tourism industry. That the travel association listed south 
park and--are you talking about the road to McCarthy? Is that 
the road you were speaking of.
    That Wrangell is the biggest collection of wilderness in 
the United States, inholdings are going to be as big as the 
next biggest park. But that what's unusual about it, most of 
the inholdings aren't individuals, they're the State. So what 
does the State have, as kind of its intention of picking that? 
Was it pre the park? Was it attempting to develop the road? 
What was the thought, do you know?
    Mr. Shively. Mr. Chairman, I've never looked at it. It had 
to be pre the park, because if they didn't have the title, at 
the time the park was established, they weren't going to get 
it. So I'm positive that's where it was. And----
    Mr. Souder. So much of it's so close to that road, there 
had to be some kind of original----
    Mr. Shively. Well, my----
    Mr. Souder [continuing]. Thought. Unless it was a huge 
mine, why would you have picked hundreds of thousands of acres 
along that road?
    Mr. Shively. My guess is it was for the mining potential. 
I'm----
    Mr. Souder. Do you know, Mr. Menge?
    Mr. Menge. Yes. Recognize that we were working off of 
almost a blank piece of paper, as related to preserves, and 
particularly, hardrock. We knew about Prudhoe. We had some 
ideas about Bristol Bay and natural gas. So we had a little bit 
of a handle there.
    On the hardrock, we were looking at historic mining 
districts, and certainly, McCarthy was one of those. And I 
mentioned earlier, infrastructure. That the world-class mine, 
that's 300 miles of road, is not worth a whole lot.
    So the combination of the road and the historical mining 
district was well in the front of their minds when they made 
that selection.
    Mr. Souder. OK. Now I'll move to Mr. Kenyon.
    It seems to me there's two kinds of questions as relating 
to inholdings: How do the individual longer-time people, like 
yourself, feel about, all of a sudden, developing that road, 
and potentially developing all along that road.
    Mr. Kenyon. Well, the inholders in the park are like human 
beings everywhere. They don't agree. There's a lot of division 
about whether the road should be developed, whether the park 
should be developed, and there's no consensus.
    Mr. Souder. In the cases that you were talking about--and 
let me move to a couple in particular. In the access question, 
from your perspective, and the people who have been there and 
have land in the park, how would you propose to accommodate the 
access question to your property? Any way you want to do it, do 
it? If it's only been historic, then it stays historic? 
(Indiscernible).
    Mr. Kenyon. Well, most--and I don't know the percentage. 
But I'm going to say 90 percent-plus of the cases established--
I mean, the access was established long ago. In most cases, 
prior to the park, and so there's been ongoing use. It's really 
almost a no-brainer. I mean, it's just there; it's been used; 
it's not causing damage to park resources.
    And I think Marcia's doing a good, good job here of trying 
to put that in a document. That certainly the inholder 
shouldn't be using six different routes to his house, but the 
one that he's been using for 20 years shouldn't be contested 
all that much.
    Mr. Souder. And I'd never been to this road area until, I 
think it was--this is Monday, so it must have been Sunday, 
coming back. From Tok, we--I drove into that area--that's 
including a couple of bed and breakfasts--before you get to the 
park. It's the only place in the country where I've ever seen 
park this side or this side. Once you get down on the other 
side of the road, parks on both sides. So I presume it's 
preserve on both sides. So it's a very unusual junction. As you 
go on the road a little bit, there's a camp that's disappeared. 
Is that one of the camps that you were talking about? You 
suggested written testimony.
    Mr. Kenyon. Uh-huh.
    Mr. Souder. That there were some benefits, if you were at 
the edge of the park. I presume, the ones that we've talked, 
got squeezed or something, were down the road a little farther.
    Mr. Kenyon. Right.
    Down the road a little farther were a number of small 
businesses, ``mom-and-pop businesses,'' we call them, and most 
of those are gone. A few still struggle on, but there are very 
few.
    Mr. Souder. It was hard for me to sort out, from your 
written testimony, what you felt that the prevalent reasons--it 
just wasn't--obviously, you didn't feel it was enough traffic. 
You felt some condition changed with the Park Service. Was it a 
question of (Indiscernible).
    Mr. Kenyon. Well, that's 150 miles from where I live, and 
I'm not that familiar, so I based that on what people up there 
told me.
    Mr. Souder. When you say you're going to get some--I heard 
a little bit of that, even in the brief time I was there. When 
you said you were going to let a few people know, if you could 
see if somebody can present that, and then I'll also try to get 
a counter. And this would be good, because once the subject 
gets raised in a hearing, it's good to, kind of, play it out a 
little bit. Because, here, we're not trying to have a 
confrontation, we're trying to allow good discussion on very, 
very difficult issues.
    And what was, kind of, your reaction to some of Mr. 
Stratton's comments about the wildlife, difficulty in the 
management? How do you feel? I mean, that's a specific proposal 
to increase the number of National Park Service people who are 
monitoring total animals, so----
    Mr. Kenyon. This was the first I'd heard of it. I was, 
frankly, quite surprised. In the Wrangell-St. Elias park--it's 
basically unit, what, 13, I guess.
    On the whole 13 million acres, there's less than 30 moose 
taken a year. There's, what, 300 killed here, in the Mat-Su 
Valley, accidentally by cars. And I would think that the State 
would provide, certainly, adequate harvest reports.
    I guess, I just didn't understand. It's a confusing issue 
to me.
    Mr. Souder. Then, Mr. Stratton, could you elaborate? How 
much of that do you think is actually in some of the big parks, 
and just that we don't know what's in the big parks?
    I have to admit that, A, I've been here for 2 weeks, moving 
around the State, and I think I've gone 2,500 miles, and some 
of that in Canada, and over to Haines and Skagway. A lot of it 
in Canada. In the other business here, I have to confess, that 
I have seen lots of moose but I haven't seen moose in the 
parks.
    How do you respond to the fact that the--here, to the 
challenge of the moose in the Mat-Su Valley? Does that make it 
more important that we protect the moose in the park, because 
we're not going to be able to do anything about the Mat-Su 
Valley?
    Mr. Stratton. Well, our concern that we've raised in our 
moose counting report is that we don't know. We've done some 
investigation into what is reported to the State of Alaska, you 
know, by hunters, and then, in some of the parks, we correlated 
that, then, to the amount that was reported in the same park 
through the community harvest surveys, where people actually go 
into the communities and ask people, ``How was hunting last 
year?'' And we found a huge discrepancy. In some parks, as 
little as 3 percent of what the community harvest surveys told 
us was being taken was reported through the State of Alaska.
    That just set off alarm bells to us. We're not saying that 
there is a problem. What we're saying is that we don't have 
enough funding in the Park Service to do the adequate data 
collection in order to make sure that we don't ever have a 
problem. Because Congress made it very clear that you can do 
subsistence activities in most of the parks, you can do sport 
hunting in national preserves, but at the same time, it also 
said you have to protect the wildlife populations. And so that 
is a balancing act.
    If you're going to be doing that balancing act, it would 
seem to me that you would want to have the best data available, 
to make sure that the scales didn't go too far one way or too 
far the other. And what we saw, in just, you know, kind of 
scratching the surface on this, was that the Park Service needs 
more information, to make sure that they don't get out of 
balance.
    So all our report is calling for is an increase in support. 
We think funding is the easiest way to do it. But I know, in 
discussions with Marcia, that she's looking at some other, more 
creative ways to get at that problem.
    We just think that data needs to be brought forth and given 
to the park superintendents, in a way that they can understand 
it, so that they know what's going on in the parks so that we 
don't have a problem down the road.
    Mr. Souder. I spent the last couple years working on the 
Southwest border (Indiscernible).
    Mr. Menge, do you have any comments on that or----
    Mr. Menge. No, I don't. You know, a good geologist 
shouldn't. Other than the fact that moose tastes pretty good 
with braised potatoes, I don't really know a lot more. It's 
probably never a good idea to opine before a congressional 
committee on something you don't know a thing about.
    Mr. Souder. Thank you for that honesty. Many people don't 
feel that way. Usually, they're not in a committee, where 
they're under oath, either, there's no question that if--well, 
let me ask. The most fascinating difference--and one of my 
friends in Congress and I got to chatting. I don't think he was 
sold on what I told him, and that is: History may not repeat 
itself, but often it rhymes. And in our national parks here, it 
appears there's a lot of rhyming.
    But this is the only State where people have said that of 
the national park visitors, the bulk are coming through the 
cruise ship industry. Either they're coming directly in, like 
up Glacier Bay or they're coming indirectly, through Denali or 
Skagway. So this is just kind of a unique wrinkle in this.
    Where do you see the best place is for the cruise ship 
industry? Getting bigger boats and more in Glacier Bay, is one. 
Where else do you see the extension?
    Mr. Shively. Well, I think we're always looking for new 
opportunities. I mean, we clearly, I think, see that the 
Wrangell-St. Elias park has some spectacular scenery. It's a 
great place. It has lots of land. Our sister company, Princess, 
has put up a lodge in Copper Center, to sort of start that. And 
so that's clearly a place.
    We, this year, started a tour along the Kenai Peninsula, 
that we haven't had before, that does include the Kenai Fjords 
park, because a lot of the passengers that do get off in Seward 
don't go to Kenai Fjords.
    I think, probably, for us, going--we do take people to 
Prudhoe Bay, so we do go up through Gates of the Arctic. 
There's probably some opportunity for expansion there, not a 
lot. And clearly we think that, you know, there's opportunity 
in the two big ones, too; Denali and Glacier Bay.
    Mr. Souder. It's always dangerous to ask a question you 
have no clue what the answer is. How do you interact with the 
Native corporations? I mean, clearly, like any other business--
some people fault this, but it's any other business.
    If you have a basic rate, ``Here's the cheapest cabin, 
here's the basic food,'' and then you want to upgrade your 
cabin. But if you want to do some of the extras, those are 
extra. And you want a (Indiscernible) quality, because of a bad 
experience; it wasn't exactly on the cruise, even if it wasn't 
(Indiscernible). If you contract with somebody who delivers a 
bad product, they're going to complain about the whole cruise, 
not about the person who delivered the bad product to you. 
That's your business challenge.
    Do you work with the Native corporations, on some of their 
lodging, on these things? Or more particularly, for example, I 
was told, when we were going to go up--it was recommended to me 
strongly that I go up and see Kotzebue, and then over to Nome; 
that the Native corporation there had a package, that it was 
cheaper to get the package than it was to get the air flight 
and then the hotel.
    Do you work with Native corporations on the packages like 
that? And do you see any kind of packages, or do you see 
yourself, at some point, getting an air wing (Indiscernible)?
    Mr. Shively. What was that, the last--I didn't get the 
last--I'm sorry.
    Mr. Souder. Do you have an air wing, or do you see yourself 
purchasing an air wing, like the hotel business, that board or 
move people to the proper points in Alaska? Are you going to 
have an airwing?
    Mr. Shively. No, I don't see us producing an airwing. And 
actually, I don't think we would really like, all that much, to 
be in the hotel business. One of the reasons we aren't is that 
we found that it was very hard to find people that had enough 
capital, that would risk putting up the kind of facilities we 
need for hotels, for what, years ago, was about a 3\1/2\ month 
business and now is 4 to 5. And that's why we're in this 
business. And the same with the rail cars.
    Now, to answer the original question. We interact with 
Native organizations and corporations in a number of ways. We 
have a relationship with the Alaska Native Heritage Center 
here, where they place Native artists on our ships. We also 
have a relationship with the Hoonah tribe, through the Native 
Corp., where, as you saw the other day, we have a Native 
interpreter in Glacier Bay. We do the same thing for our ships 
that go into Hubbard Glacier, with the tribe in Yakatat. And 
other lines use local Native people.
    A number of the people we do business with, for shore 
tours, are Native organizations; Saxman, Goldbelt, Huna Totem. 
Of course, Huna Totem has developed their own venue in Hoonah. 
And while Caribbean started there, and actually came to an 
agreement with them about usage, we started sending a ship 
there this year.
    In terms of going further north, we do sell the Kotzebue-
Nome trip, as an option, as you--I think I may have mentioned 
to you last week, I did work for NANA, for a number of years. 
We had a relationship with the cruise industry for some time.
    I think the problem for the Arctic Tour now is the expense, 
combined with the fact that there are a lot of alternatives 
now, in Southcentral Alaska, that didn't exist 10 or 15 years 
ago, when the Arctic Tour was more popular.
    Mr. Souder. Because one of the challenges is, is that 
there's a slow rise in visitation to Alaska. To a degree, it's 
disbursed. One of the fundamental questions is, ``Where are the 
wildest areas of Alaska going to be.''
    And if you move into the wildest areas, with larger 
operations, much like Wrangell maybe, the next big question, do 
you develop that road? Do you develop all the way along the 
road? Do you change the nature of McCarthy.
    You're not really going to threaten the whole park. But 
you're in the, kind of the core center of the accessible part 
of the park--other than the air--and you change that 
experience. And how much should you change it? Similar 
questions on Glacier Bay. Those are kind of in the range. If it 
was disbursed more, you wouldn't have as much pressure on those 
areas; on the other hand, it would be more disbursed. What kind 
of a tiered structure.
    Because there's always going to be a percentage of the 
visitors--not only is it one of the unique places of the world 
left that isn't overdeveloped, but it is increasingly rare in 
Alaska. And there are going to be visitors that want to 
experience it, without hearing an airplane, without hearing 
other types of things. Backcountry people, who are part of your 
visitation group, you know, often your younger group, who then 
will come back for an older experience later on.
    In fact, a number of them may be introduced through a 
cruise, and then come back and want to get out into the wilder 
places. There's interaction. That if you cutoff all your 
wildest places, then you're not going to--it's kind of the 
symbol that draws the next and that draws to the areas closest.
    Let me ask a question about Curry Ridge. That clearly the 
National Park Service has multiple visitor centers. And as I'm 
sure the NPCA research has come up with, well, the challenge in 
all the parks around the country in--there's only some money--
there isn't any money to staff that.
    The cruise industry has been very creative in how to deal 
with the ships, with the--Skagway, now.
    Is that something that, as part of a package, if the 
Federal Government--because the problem here is--the Alaska 
Delegation is tremendously--Senator Stevens and Murkowski and 
Congressman Young do more proportionately for getting dollars 
to Alaska and arguing for Alaska than any other delegation in 
the country. They're just very effective. I wish we were even 
marginally that effective in Indiana.
    There's everything from employability to--took us over to 
being--that--been in a long time, to being very subtle in their 
questioning of other members, that whole thing is very 
aggressive. But they may be able to get a visitor center. But 
they're not likely to get a plus out of your community 
resources.
    So that the challenge comes is, do you think that there are 
options here, that if something was developed, that, in effect, 
the interpretation of the visiting center or managing of the 
visiting center--because--because, generally speaking, the 
concessioneer part of the visitor center is contracted out. 
There might be a little bit for food. There might be--the 
Alaska History Association manages a bookstore, so it's not 
like what we worked through at Gettysburg, where, in fact, the 
park was able to pay, to some degree, because they managed to 
work out higher concession fees with it. It's a very deep kind 
of concept.
    If it's very important to the travel industry, particularly 
the cruise industry, to get something developed, do you think 
that something might be worked out in that manner? Is that 
something even worth pursuing? Or have you talked about it.
    Mr. Shively. Mr. Chairman, I'm not sure we've actually 
talked about it. But certainly, we've tried to work on 
developing and helping pay for interpretive programs. So I 
certainly think we'd be more than willing to sit down with the 
Park Service and discuss that. I mean, we're----
    Mr. Souder. Because you've run an agency. You know the 
difficulty. It often isn't building something, it's manning it.
    Mr. Shively. Building is the fun; operation is the problem.
    Mr. Souder. Do you have any thoughts on that, Mr. Menge, on 
Curry Ridge?
    Mr. Menge. I do. I----
    Mr. Souder. I did, by the way, get a chance to see--I think 
it was the Anchorage paper 1 day, in the time I was here, pages 
on the history of this. It's just amazing how long this has 
been debated.
    Mr. Menge. Mr. Chairman, we----
    Mr. Souder. Not to say you've experienced it at all.
    Mr. Menge. The challenge we face here is, ``If you build 
it, they will come.'' It requires a large, very large cash 
infusion.
    I think Mr. Shively talked about the capital investment in 
those hotels. Those are spectacular hotels, but they would 
never have been built without corporate backing and the vision 
of that company to do it.
    The same thing with visitor centers. We're not going to be 
able to develop the clientele to support a visitor center until 
a visitor center is there. And we are painfully aware, 
particularly in running the State parks, the challenges with 
maintenance.
    Most of--I have a State legislator that--coming up all the 
time, volunteering or offering to build legislation to acquire 
more land, to acquire another facility. But I go back to those 
same legislators a year later and try to defend a maintenance 
budget, and it's a different story.
    So those of us who are charged with actually running the 
facilities must keep in the front of our mind the maintenance. 
That's why we hope that any of these facilities would come with 
an operational plan associated with it and could talk about how 
it would be managed and manned and financed after. They are 
critically important to--to draw the--provide the opportunity. 
So those are the--that's the challenge we face.
    Mr. Souder. Mount St. Helens is an area where they have 
seven visitor centers, and now none of them have enough to 
really support--some are private; some are State; some are 
Forest. And how--how to coordinate something like that, and 
have a (Indiscernible) development process and then go through 
the parks. You know, the--the--around the country, there's 
always this tension between when you develop a new area, what's 
going to happen to the people at the old area, too, and their--
their residents and facilities.
    Mr. Stratton, let me ask you this question. I appreciate 
you bringing out and releasing the wildlife report today. 
Clearly, Alaska is unique, in the sense of--we have 
reintroduced wolves into Yellowstone, and we have some grizzly 
bears in a few places that--but you have a whole ecosystem 
here, including wildlife, as a--as a critical component.
    As the country--and I think one of the--as we look toward 
the 100th birthday of the park system, which is part of what's 
behind, I think, this, ``Where should the National Park System 
go?'' The Mission 66, was having visitor services supporting 
it. Where are we going? How are we going to sustain the Park 
Service for the future.
    This is actually the 90th birthday. It's my understanding 
the Park Service is wisely going to and soon announce that next 
year we'll be celebrating the 90th and putting some proposals 
on the table, of which I'm thrilled. It's one of the biproducts 
of all the work here.
    Secretary Kempthorne is taking the bull by the horns and is 
hopefully about to announce a proposal that will start them on 
a process toward the 100 years, here in the 90th. That as we 
look at this, understanding that we have this unbelievable 
resource of science, of wildlife, of fish, of all the earth, in 
addition to cultural resources in the Park Service, that 
ideally could be interrelated with education. I very much 
appreciate that.
    But beyond the wildlife, what would you say, from your 
perspective, are the two other biggest challenges you think 
we're going to face when we look at Alaska? As--because this 
is--is it 60 percent of the Federal funding in Alaska.
    Mr. Stratton. Two-thirds.
    Mr. Souder. Two-thirds.
    And I think I understood, from Fish and Wildlife, it's 
about 70 percent of the Fish and Wildlife.
    So as we move this debate beyond the better data on this 
wildlife, what do you think the other two biggest challenges 
are going to be?
    Mr. Stratton. Well, I think the other biggest challenge, it 
revolves around the larger access discussions, and access to 
inholdings, whether they're driveways to people who live in 
Wrangell-St. Elias, which NPCA has been supportive of resolving 
that as quickly as we can, following the Park Service, in 
support of the folks out along the McCarthy Road.
    But the big question with access, to us, is access to 
places that don't have access right now. There's still pieces 
of private property in places where there is no road built to 
it, or where someone might want to do that in the future. I 
think that is a big discussion that we need to have down the 
road.
    I think the opportunity to acquire inholdings, from willing 
sellers, is an opportunity that we need to take advantage of 
more in Alaska. There are people, who own land inside national 
parks, who will be very willing to sell to the National Park 
Service, because they recognize that, you know, giving their 
land to the National Park Service protects it, you know, into a 
larger protected area.
    But as we all know, you know, Federal funds, through the 
Land and Water Conservation Fund, haven't been appropriated at 
quite the level they've been accumulating in that fund. And I'm 
not sure how you get your arms around the fact that, you know, 
you've got some authorization, in the Land and Water 
Conservation Fund, to use primarily offshore, Outer Continental 
Shelf oil and gas moneys to do those kinds of inholding 
acquisitions, but the money seems to be going someplace else 
rather than to help WCS.
    Because that number has been coming down, you know, year 
after year, both for acquisitions of inholdings in national 
systems, but also the land and water, that money that comes 
into the State of Alaska, which when I was Director of State 
Parks, we used for some of our, you know, inholding acquisition 
opportunities there, again, from willing sellers.
    So I think, you know, trying to figure out how you can 
bring more, you know, private money, you know, more outside 
interest in helping to--you know, to partner with what little 
Federal money there is, to try and take care of some of those 
inholding concerns. Because the easiest way to not have a fight 
over how you get an access to an inholding is to have the 
government acquire it, and then that discussion goes away.
    Mr. Souder. I thank you all. I took us right up to 1.
    I may have a couple additional questions that I didn't--
dealt fully, on the inholding question, Mr. Kenyon. And if you 
could do some more talking to other people regarding that.
    My own--my own position is, the Federal Government's been 
appalling, in the sense of willing--willing to buy land. They 
restrict the use of land and tell people they can't do this, 
they can't do that, and when they say, ``OK, we'll sell it to 
you,'' they go, ``Well, we wouldn't have any money.''
    That has been--do you want to comment on that, Mr. Kenyon?
    Mr. Kenyon. Well, yes, I would like to give you our latest 
issue of our news, which has the story of the Orange Hill 
property, in Wrangell-St. Elias, and how the owner, Mr. 
McGregor, has been trying to work with the Park Service for 20 
years to get bought out, and he's been unsuccessful. So that's 
included in here.
    Mr. Souder. Thank you. We'll make sure we have that.
    Mr. Kenyon. I would say, however, one of--one of the fears, 
I guess, of the little--little guy in the parks, is that he'd 
be coerced into becoming a willing seller, by unreasonable 
access regulations, by other things that diminish his, either 
property value or his ability to sustain a lifestyle in the 
park. Also, I read in Mr. Stratton's written report that he 
would like the Federal Government to buy 700,000 acres more in 
the park. And that, frankly, is very, very frightening to the 
little guy in the park. Most of that land, by the way, it's my 
understanding--and Marcia would correct me, maybe, but--I think 
there's like 600,000 acres that are Native corporation land, 
and the remainder--I don't think there's a whole lot of State 
land left.
    Is there, Mr. Menge?
    Mr. Menge. I haven't looked at it.
    Mr. Kenyon. I don't believe there's very much State land 
left in the Wrangell-St. Elias.
    Mr. Souder. (Indiscernible).
    Mr. Kenyon. Pardon?
    Mr. Souder. Other than--other than the Native lands, the 
State is still the largest. But that could be a little dated.
    Mr. Kenyon. Perhaps. But it's certainly less than a couple 
hundred-thousand acres. I know 12,000 just went to the 
University.
    Mr. Souder. But we'll get that--my figures would have been 
State and would account for the University.
    I know a couple years ago that when there was 1.2 million 
acres, nearly 800,000 of that was State and University, 
together. The Native lands were, I think, 200,000 to 250,000, 
and then the smaller percentage, because they're smaller lots, 
were the individual.
    Natives--is it Alaska Natives, as opposed to native 
Alaskans; is that right? And that--that most of the native 
Alaskans, historic peoples, are along the main road, which are 
much easier to deal with than the pockmarked-type internal.
    And how to work these questions out to--that--that--I think 
that there is a sincere desire, in Congress and in the Park 
Service, to try to work out things with--with--generally 
speaking, with--with the isolated inholders. And that we have 
those all over our parks in the United States.
    And when you start to mine, which is a more complicated 
question, how to do that, and what laws are going to apply, 
becomes difficult. How big and what type of access is clearly 
worked through. But those--I think, it's the sense of Congress 
is to try to work those out.
    Absentee speculative landholders is another question, And 
how to work it out with the Native peoples, and can you 
consolidate those around a couple areas and leave the rest 
wild, with these few pockets, I think is where we're headed.
    But this is--this is a huge question that we've got to work 
through.
    Mr. Kenyon. Well, we've been looking into it recently 
because of the access question. And again, I could be wrong, 
but I think that those isolated parcels that you refer to are 
very few and far between in the Wrangells.
    Mr. Souder. OK. We'll get that, specifically, for the 
record.
    Well, thank you very much for your testimony today. It's 
been very informative. As we move through these hearings, as we 
move to the end--and, in fact, this may be the last hearing, 
other than the Washington hearing later this fall, that then 
we'll move into the next cycle of Congress. That--it's been 
very helpful.
    Clearly, we know that the Park Service is strapped for 
money, that the--that we have visitation demands here. There 
aren't as many Homeland Security demands, but in many other 
areas of the country, the Homeland Security demands are putting 
additional pressure on the ability even to keep up roads, a 
clear demand, is a huge challenge upon many of our supports 
(Indiscernible). Kind of the biggest example I found in Park 
Service is Glacier National Park; how to handle sewage systems 
in the Park Service. That Alaska had different challenges. It's 
been very helpful to get the information today.
    I strongly believe that there's a reason national--a reason 
park rangers are the highest rated profession. Not only are 
they good people, not only are the people on vacation when they 
see park rangers, but the people really value national parks. 
There's not a poll taken where this doesn't rank up with what 
people want us to focus on, and they want us to be able to both 
use them and pass them to the future generations.
    I also know that I have never met anybody from my district, 
and many friends and so on, who visited Alaska--usually through 
a cruise ship--ever come back and say that they had a bad 
experience. That they really love the State. And how to build 
on that preserve, the natural beauty, to have people see what--
at least, a form of the wild, it's like--it's a tremendous 
opportunity. And hopefully, we can continue to do that.
    Thank you for participating and trying to work through both 
the particular details in Alaska that are different and putting 
it into context, as the biggest part of the National Park 
Service, ``Where am I heading in the future?''
    With that, the subcommittee stands adjourned.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5892.051

[GRAPHIC] [TIFF OMITTED] T5892.052

[GRAPHIC] [TIFF OMITTED] T5892.053

[GRAPHIC] [TIFF OMITTED] T5892.054

[GRAPHIC] [TIFF OMITTED] T5892.055

[GRAPHIC] [TIFF OMITTED] T5892.056

[GRAPHIC] [TIFF OMITTED] T5892.057

[GRAPHIC] [TIFF OMITTED] T5892.058

[GRAPHIC] [TIFF OMITTED] T5892.059

[GRAPHIC] [TIFF OMITTED] T5892.060

[GRAPHIC] [TIFF OMITTED] T5892.061

[GRAPHIC] [TIFF OMITTED] T5892.062

[GRAPHIC] [TIFF OMITTED] T5892.063

[GRAPHIC] [TIFF OMITTED] T5892.064

[GRAPHIC] [TIFF OMITTED] T5892.065

[GRAPHIC] [TIFF OMITTED] T5892.066

[GRAPHIC] [TIFF OMITTED] T5892.067

[GRAPHIC] [TIFF OMITTED] T5892.068

[GRAPHIC] [TIFF OMITTED] T5892.069

[GRAPHIC] [TIFF OMITTED] T5892.070

[GRAPHIC] [TIFF OMITTED] T5892.071

[GRAPHIC] [TIFF OMITTED] T5892.072

[GRAPHIC] [TIFF OMITTED] T5892.073

[GRAPHIC] [TIFF OMITTED] T5892.074

[GRAPHIC] [TIFF OMITTED] T5892.075

[GRAPHIC] [TIFF OMITTED] T5892.076

[GRAPHIC] [TIFF OMITTED] T5892.077

[GRAPHIC] [TIFF OMITTED] T5892.078

[GRAPHIC] [TIFF OMITTED] T5892.079

[GRAPHIC] [TIFF OMITTED] T5892.080

[GRAPHIC] [TIFF OMITTED] T5892.081

[GRAPHIC] [TIFF OMITTED] T5892.082

[GRAPHIC] [TIFF OMITTED] T5892.083

[GRAPHIC] [TIFF OMITTED] T5892.084

[GRAPHIC] [TIFF OMITTED] T5892.085

[GRAPHIC] [TIFF OMITTED] T5892.086

[GRAPHIC] [TIFF OMITTED] T5892.087

[GRAPHIC] [TIFF OMITTED] T5892.088

[GRAPHIC] [TIFF OMITTED] T5892.089

[GRAPHIC] [TIFF OMITTED] T5892.090

[GRAPHIC] [TIFF OMITTED] T5892.091

[GRAPHIC] [TIFF OMITTED] T5892.092

[GRAPHIC] [TIFF OMITTED] T5892.093

[GRAPHIC] [TIFF OMITTED] T5892.094

[GRAPHIC] [TIFF OMITTED] T5892.095

[GRAPHIC] [TIFF OMITTED] T5892.096

[GRAPHIC] [TIFF OMITTED] T5892.097

[GRAPHIC] [TIFF OMITTED] T5892.098

                                 <all>

</pre></body></html>
